V

INDEX TO APPENDICES
Page
APPENDIX A-l- Order of the United States Court of Appeals for the Eleventh Circuit, denying
issuance of a Certificate of Appealability,
September 3, 2020
1-3
APPENDIX A-2- Order of the United States Court of Appeal for the Eleventh Circuit denying
reconsideration for issuance of Certificate of Appealability,
October 22, 2020.
1-2
APPENDIX B - Order of the a United States District Court for the Northern District of Georgia,
denying issuance of a Certificate of Appealability, February 24, 2020 ............
1-6
APPENDIX-C Order of the United States District court, Magistrate, Northern Dist. Of
Georgia, denying writ of habeas corpus R&R,
December 7, 2019
1-28
APPENDIX-D -1 Order of the Georgia Supreme Court, denying Certificate of Probable Cause,
June 4, 20218
1
APPENDIX-D- 2 Order of the Georgia Supreme Court, denying Direct Appeal,
March 8, 2014
No subject matter juridiction.
1-11
APPENDIX E - Order of he Superior court Tattnall County, denying habeas relief, April 13,
2017
1-5
APPENDIX F - 1 Order of the Dekalb County Superior Court, denying Motion for New Trial,
February 26, 2013
.No subject matter jurisdiction.
1-6
APPENDIX F - 2 Order of the Dekalb County Superior Court, denying Motion for
vi

production of court records etc., October 5 2012.

1-2

*

>

APPENDIX G - Prosecutor William Clark, Orally Amending Indictment, September 26,
Trial Transcript.
2011
Cover, 63-lines 17-25, 64 line 1
APPENDIX -H-l Notice of Appointment, Gerard Kleinrock, January 18, 2012..1-5
APPENDIX -H - 2 Notice of Appointment, Teri Smith, August 23, 2012

1-3

APPENDIX -I- Stipulation of State, Trial Court and Leonora Grant, February
Cover, 9-10

12,2013

%

APPENDIX A-l- Order of the United States Court of Appeals for the Eleventh
Circuit, denying issuance of a Certificate of Appealability,
1-3
September 3, 2020

Case: 20-10802

Date Filed: 09/03/2020

Page: 1 of 3

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-10802-H

MARK RUDOLPH ARSENIO REED,
Petitioner-Appellant,
versus
ROBERT TOOLE,
MARTY ALLEN,
WARDEN,
Respondents-Appellees.
Appeal from the United States District Court
for the Northern District of Georgia
ORDER:
Mark Reed is a Georgia prisoner serving a life sentence for malice murder, concealing the
death of another, and possessing a firearm during the commission of a felony. He filed a pro se
28 U.S.C. § 2254 petition, alleging the following claims:
(1)-Jhe trial court failed to,timejy provide counsel for sentencing,,appoint counsel for his
direct appeal, or appoint counsel for his post-conviction proceedings;1
(2) the state impermissibly amended his indictment;2
(3) his conviction was beyond the statute of limitations; and
(4) the trial court erred in denying his motion for a new trial.

Due to the repetition of Mr. Reed’s arguments, this Court follows the district court in
combining his Claims 1-3 and 7, as they are substantively the same or similar.
2 This is a combination of Mr. Reed’s Claims 4-6, 8, and 10-13, 15.

rCase: 20-10802

Date Filed: 09/03/2020

Page: 2 of 3

A magistrate judge issued a report and recommendation (“R&R”), recommending that Mr.
Reed’s petition be denied on its merits. The district court adopted the R&R over Mr. Reed’s
objections, denied his claims, and denied him a certificate of appealability (“COA”) and in forma
pauperis (“IFP”) status. Mr. Reed appealed, and now moves this Court for both.
Mr. Reed’s first claim does not warrant a COA. First, to the extent that Mr. Reed argued
that he was not provided counsel at various stages, the record contradicts him, as the state court
provided him the necessary warnings regarding representing himself on direct appeal, such that he
knowingly and voluntarily chose to represent himself. See United States v. Berger, 375 F.3d 1223,
1226 (11th Cir. 2004); Faretta v. California, 422 U.S. 806, 835 (1975). Second, to the extent that
he challenged his lack of counsel during the time in which he could have timely moved for arrest
of judgment, Mr. Reed failed to explain why he could not file the motion without counsel. See
Tejada v. Dugger, 941 F.2d 1551, 1559 (11th Cir. 1991). Third, a prisoner does not have a
constitutional right to counsel in a habeas proceeding, and thus, he cannot warrant habeas relief on
such a claim. See Pennsylvania v. Finley, 481 U.S. 551, 555 (1987).
Next, Mr. Reed’s second claim does not warrant a COA because the Georgia Supreme
Court relied on Georgia caselaw requirements for its findings on the statute of limitations and
proper indictments, and those findings warrant deference from the-federal courts. See Herring v.
Sec’y, Dep’t of Corr., 397 F.3d 1338, 1355 (11th Cir. 2005). Otherwise, the indictment satisfied
the Sixth Amendment requirements, in that it sufficiently “informed [him] of the nature and cause
of the accusation,” even if it did not have the correct date. See U.S. Const, amend. VI.
Finally, Claims Three and Four do not warrant a COA because Mr. Reed failed to base
those claims on the denial of a constitutional right, as statute of limitations and denial of a motion

2

%

(*•/
Case: 20-10802

Date Filed: 09/03/2020

Page: 3 of 3

for a new trial are issues of pure state law, and he otherwise failed to argue that his federal due
process rights were violated. See 28 U.S.C. § 2253(c)(2).
Accordingly, Mr. Reed’s motion for a COA is DENIED and his IFP motion is DENIED
AS MOOT.
_____ /s/ Jill Pryor_______
UNITED STATES CIRCUIT JUDGE

3

%

APPENDIX A-2- Order of the United States Court of Appeal for the
Eleventh Circuit denying reconsideration for issuance of Certificate
of Appealability,
October 22, 2020.

1-2

Y

r-

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.cal 1 .uscourts.gov

David J. Smith
Clerk of Court

October 22,2020
Mark Rudolph Arsenic Reed
Georgia SP - Inmate Legal Mail
300 1ST AVE S
REIDSVILLE, GA 30453

- -v ■

Appeal Number: 20-10802-H
Case Style: Mark Reed v. Robert Toole, et al
District Court Docket No: 1:18-cv-03970-AT
This Court requires all counsel to file documents electronically using the Electronic Case
Files ("ECF") system, unless exempted for good cause. Non-incarcerated pro se parties
are permitted to use the ECF system by registering for an account at www.pacer.gov.
Information and training materials related to electronic filing, are available at
www.call.uscourts.gov.
The enclosed order has been ENTERED.
Sincerely,
DAVID J. SMITH, Clerk pf Court
Reply to: Gerald B. Frost, H
Phone-#:. (404). 335-6182
MOT-2 Notice of Court Action

*

ft

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-10802-H

MARK RUDOLPH ARSENIO REED,
Petitioner-Appellant,
versus
ROBERT TOOLE,
MARTY ALLEN,
WARDEN,
Respondents-Appellees.

Appeal from the United States District Court
for the Northern District of Georgia

Before: JILL PRYOR and BRASHER, Circuit Judges.
BY THE COURT:
Mark Reed has filed a motion for reconsideration, pursuant to 11th Cir. R. 22-1(c)
and 27-2, of this Court’s September 3,2020, order denying a certificate of appealability and leave,—
to proceed in forma pauperis in his appeal from the denial of his 28 U.S.C. § 2254 habeas corpus
petition. Upon review, Reed’s motion for reconsideration is DENIED because he has offered no
new evidence or arguments of merit to warrant relief.

APPENDIX B - Order of the a United States District Court for the Northern
District of Georgia, denying issuance of a Certificate of Appealability, February
1-6
24, 2020

<1

<1

Case l:18-cv-03970-AT Document 21 Filed 02/04/20 Page 1 of 2

*' *

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
s

MARK RUDOLPH ARSENIO
REED,

>

i

Petitioner,
CIVIL ACTION NO.
_ l:i8-cv-3970-AT

v.
ROBERT TOOLE, etal,
Defendants.
ORDER

This action is before the Court on petitioner’s Application for Leave to
Appeal in Forma Pauperis [Doc. 18] and Motion for Certificate of
Appealability [Doc. 19].
On December 17,2019, the Magistrate Judge issued a Final Report and
Recommendation that the instant petition be denied and that a certificate of
appealability also be denied! Petitioner filed a notice of appeal on January 2,
2020, and objections to the Report and Recommendation on January 6,
2020. The Court had not issued a ruling on the Report and Recommendation
prior to the filing of the notice of appeal.
Accordingly, plaintiffs application to appeal in forma pauperis [Doc.
18] and Motion for Certificate of Appealability [Doc 19] are DENIED. Any

t

*

Case l:18-cv-03970-AT Document 21 Filed 02/04/20 Page 2 of 2

further request to proceed in forma pauperis on appeal should be directed,
on motion, to the United States Court of Appeals for the Eleventh Circuit, in
accordance with Rule 24(a)(5) of the Federal Rules of Appellate Procedure.

IT IS SO ORDERED this 4th day of February, 2020.

AMY TO3XNBER;
UNITED STATES DISTRICT JUDGE

2

t uivi/Pcr-UA Northern District Court
»

https://gand-ecf.sso.dcn/cgi-bin/Dispatch.pI78795582478069S

ft> '

Orders on Motions
1:18-cv-03970-AT Reed v. Toole et al
Omonths.2254, APPEAL, ATLC1, CMS, SLC4.SUBMDJ

U.S. District Court
Northern District of Georgia
Notice of Electronic Filing
The following transaction was entered on 2/4/2020 at 1:41 PM EST and filed on 2/4/2020
Case Name:
Reed v. Toole et al
Case Number:
1:18-CV-03970-AT
Filer:
Document Number: 21
Docket Text:
ORDER:
Totsnberg on^4/2W0 (bnpf W"’’in 3° d3yS PUrSUan' *° Fed-R APP R24' Sl9"ed by Judge Amy

l:18-cv-03970-AT Notice has been electronically mailed to:
Meghan Hobbs Hill
Paula K. Smith

mhill@law.ga.gov, psmith@law.ga.gov

psmith@Iaw.ga.gov

l:18-cv-03970-AT Notice has been delivered by other means to:
Mark Rudolph Arsenio Reed
1000664635
Georgia State Prison
300 1st Avenue
Reidsville, GA 30499
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=1060868753 [Date=2/4/2020] [FileNumber=l 0590000-0
] [ 13ae3859971 ab98f46224ec37ad20933656876e8f0e0f3376e 12753a65fc7d4813a
7a96fc6359fb7d251418fe0c48a69d 12248ee88b9eb928bbb009b0f5848c5]]

of 1

OM/ooon i./ti r*» 4

Case l:18-cv-03970-AT Document 23 Filed 02/21/20 Page 1 of 1

f.

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION

MARK RUDOLPH ARSENIO REED,
Petitioner,
CIVIL ACTION FILE
vs.

NO. 1:18-cv-03970-AT

ROBERT TOOLE, MARTY ALLEN,
WARDEN,
Respondents.

JUDGMENT
This petition for a writ of habeas corpus having come before the Court, Honorable
Amy Totenberg, United States District Judge, for consideration of the Magistrate
Judge’s

Report

and

Recommendation,

and

the

Court

having

adopted

said

recommendation, it is
Ordered and Adjudged that the petition for a writ of habeas corpus be, and the
same hereby is, denied and dismissed.
Dated at Atlanta, Georgia, this 21st day of February, 2020.
JAMES N. HATTEN
CLERK OF COURT..

By:

Prepared, Filed and Entered
in the Clerk's Office
February 21,2020
James N. Hatten
Clerk of Court
Bv: s/Brittanv Polev
Deputy Clerk

s/Brittanv Polev
Deputy Clerk

Case l:18-cv-03970-AT Document 22 Filed 02/21/20 Page 1 of 6
V

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
MARK RUDOLPH ARSENIO
REED,
Petitioner,
CIVIL ACTION NO.
l:18-CV-3970-AT

v.

ROBERT TOOLE, et al.,
Respondents.
ORDER
Presently before the Court is the Magistrate Judge’s Report and
Recommendation (R&R) recommending that the instant habeas corpus petition be
denied and the case dismissed. [Doc. 13], Petitioner has filed his objections in
response to the R&R. [Doc. 17].
A district judge has broad discretion to accept, reject, or modify a magistrate
judge’s proposed findings and recommendations. United States v. Raddatz. 447 U.S.
667,680 (1980). Pursuant to 28 U.S.C. § 636(b)(1), the Court reviews any portion of
the Report and Recommendation that is the subject of a proper objection on a de novo
basis and any non-objected portion under a “clearly erroneous” standard. “Parties
filing objections to a magistrate’s report and recommendation must specifically
identify those findings objected to. Frivolous, conclusive or general objections need

AO 72A
(Rev.8/82)

r

Case 1:18-CV-03970-AT Document 22 Filed 02/21/20 Page 2 of 6

not be considered by the district court.” Marsden v. Moore, 847 F.2d 1536, 1548
(11th Cir. 1988).
Petitioner, an inmate at the Georgia State Prison in Reidsville, Georgia, filed the
instant 28 U.S.C. § 2254 petition for a writ of habeas corpus challenging the
constitutionality of his October 11, 2011, convictions by a jury serving in DeKalb
County Superior Court for malice murder, concealing the death of another, and
possession of a firearm during the commission of a felony.1 After the trial court
denied Petitioner’s motion for a new trial, the Georgia Supreme Court affirmed. Reed
v. State, 757 S.E.2d 84 (Ga. 2014). The Tattnall County Superior Court denied
Petitioner’s state habeas corpus petition, [Doc. 7-4], and the Georgia Supreme Court
denied Petitioner’s certificate of probable cause to appeal the denial of habeas corpus
relief, [Doc. 7-5].
Petitioner next filed the instant § 2254 petition raising fifteen overlapping
grounds for relief. In her extensive and well-reasoned R&R, the Magistrate Judge
determined that Petitioner had failed to demonstrate that he is entitled to relief. His
Grounds 4-6, 10, 13, and 15, raised claims related to the fact that Petitioner’s
1 The jury also found Petitioner guilty of malice murder, aggravated assault,
theft by taking, and theft by receiving stolen property. The trial court vacated
Petitioner’s convictions for theft by taking and theft by receiving stolen property.
[Doc. 7-6 at 194-95]. The felony murder and aggravated assault convictions merged
by operation of law. Reed, 757 S.E.2d at 86 n.l.
2
AO 72A
(Rev.8/82)

\

f

Case l:18-cv-03970-AT Document 22 Filed 02/21/20 Page 3 of 6

indictment stated that the murder occurred on or about May 7,2007, while evidence
at Petitioner’s trial established that the murder occurred sometime after March 6,2007
through March 10, 2007. The Magistrate Judge determined that Petitioner’s claims
related to the date recited on the indictment failed to state a constitutional violation
because the Fifth Amendment right to presentment or indictment by a grand jury has
not been incorporated under the Due Process Clause of the Fourteenth Amendment to
apply against the states. Moreover, Petitioner was adequately informed of the nature
of the charges against him to satisfy due process concerns, and the state courts’
rejections of his related claims are entitled to deference under § 2254(d).
Petitioner’s Grounds 1-3 and 7 raise claims related to the fact that, for a short
period after his sentencing Petitioner was not represented by counsel, depriving him
of an opportunity file a motion in arrest ofjudgment in which he could have raised his
claim regarding the dates recited in his indictment. The Magistrate Judge concluded
that Petitioner failed to demonstrate prejudice for this claim because he had ample
opportunity to raise his claim before the Georgia courts while he was represented by
counsel or in a later proceeding, and the Georgia Supreme Court performed a merits
review of his claim regarding the indictment and that court found no reversible error.
Put simply, Petitioner’s claim that the indicment was faulty (or that there was an
impermissible variance in or amendment to his indictment) is unavailing, and he thus
3
A0 72A
(Rev.8/82)

(

Case 1:18-cv-03970-AT Document 22 Filed 02/21/20 Page 4 of 6

cannot demonstrate prejudice arising from the fact that he was not represented by
counsel during the period that he could have filed his motion for an arrest of
judgment.
In his Ground 9, Petitioner contends that the incorrect date on his indictment
somehow resulted in his having been convicted of his crimes after the statute of
limitations had run. However, the record is clear that, as found the by Georgia
Supreme Court, his prosecution for all of the enumerated crimes “was well within the
application limitation period.” Reed, 757 S.E.2d at 88 n.3. In his Ground 14,
Petitioner contends that the trial court abused its discretion in denying his motion for
a new trial. This claim is again related to the fact that the date of the crime in the
indictment did not match the date presented in the evidence at Petitioner’s trial. The
Magistrate Judge concluded that Petitioner’s Ground 14 fails to raise a cognizable
constitutional claim.
In his objections, Petitioner first contends that there was no evidence presented
at his trial that established the date or even the year of his crimes. Petitioner is
incorrect. The Georgia Supreme Court held that the evidence at Petitioner’s trial was
sufficient for the jury to find that Petitioner shot Marlon Green in the chest with a
shotgun. Reed, 294 757 S.E.2d at 86. Green was Petitioner’s landlord, and the two
were in a dispute regarding the fact that Petitioner had stopped paying rent. Id Green
4
AO 72A
(Rev.8/82)

f

*

Case l:18-cv-03970-AT Document 22 Filed 02/21/20 Page 5 of 6

had stopped by the house Petitioner was renting from Green, and Petitioner shot Green
in the livingroom of that house and buried Green’s body nearby. IcL The first witness
to testify at Petitioner’s trial was Green’s mother, Ann Beard. Beard testified that
Green disappeared on March 7, 2007, and that she reported his disappearance to the
police. [Doc. 7-8 at 15]. Beard’s testimony was sufficient to establish that Green’s
murder occurred on or around March 7,2007.
Also in his objections, Petitioner repeats his arguments that the defect in the
indictment regarding the dates of the crimes renders his conviction void. However,
the Georgia courts and the Magistrate Judge squarely addressed those arguments.
Unless the criminal statute under which a crime is charged expressly includes time as
an element, time is not a material element of a criminal offense, and “a variance
between the date alleged and the date proved will not trigger reversal as long as the
date proved falls within the statute of limitations and before the return of the
indictment.” United States v. Reed. 887 F.2d 1398,1403 (11th Cir. 1989). This Court
thus concludes that the Magistrate Judge is correct and Petitioner has failed to
establish that he is entitled to relief under § 2254.
Accordingly, the R&R, [Doc. 13], is hereby ADOPTED as the order of this
Court, and the petition is DENIED. The Clerk is DIRECTED to close this action.

5
AO 72A
(Rev.8/82)

%

Case l:18-cv-03970-AT Document 22 Filed 02/21/20 Page 6 of 6

This Court further agrees with the Magistrate Judge that Petitioner has failed
to raise any claim of arguable merit, and a Certificate of Appealability is DENIED
pursuant to 28 U.S.C. § 2253(c)(2).
IT IS SO ORDERED, this 21st day of February, 2020.

AMY d?OTENBERG
UNITED STATES DISTRICT JUDGE

6
AO 72A
(Rev.8/82)

APPENDIX-C Order of the United States District court, Magistrate, Northern
Dist. Of Georgia, denying writ of habeas corpus R&R,
1-28
December 7, 2019

https://gand-ecf.sso.dcn/cgi-bin/Dispatch.pl7106526838718778

^VI/ECf-GA Northern District Court
c
*

Other Orders/Judgments
1:18-CV-03970-AT-CMS Reed v.
Toole et al
0months,2254,ATLC1 ,SLC4
U.S. District Court
Northern District of Georgia
Notice of Electronic Filing
The following transaction was entered on 12/17/2019 at 9:23 AM EST and filed on 12/17/2019
Reed v. Toole et al
Case Name:
l:18-cv-03970-AT
Case Number:
Filer:
Document Number: 13
Docket Text:
FINAL REPORT AND RECOMMENDATION: IT IS RECOMMENDED that the instant petition [1] be
DENIED, that a certificate of appealability be DENIED, and that this action be DISMISSED. The
Clerk is DIRECTED to withdraw the reference to the Magistrate Judge. Signed by Magistrate
Judge Catherine M. Salinas on 12/17/19. (bnp)
1:18-cv-03970-AT Notice has been electronically mailed to:
Meghan Hobbs Hill
Paula K. Smith

mhill@law.ga.gov, psmith@law.ga.gov

psmith@law.ga.gov

1:18-cv-03970-AT Notice has been delivered by other means to:
Mark Rudolph Arsenio Reed
1000664635
Georgia State Prison
300 1st Avenue
Reidsville, GA 30499
The following document(s) are associated with this transaction:
Document description :Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_lD=l060868753 [Date=12/17/2019] [FileNumber=10491054
-0] [3eb01a37e3ebe6dde3af2d260cb3239a5a325142baa9d34c055a7cf5dbacccb93
10cfd34e48f33da9a00929cc43ba54af42b0c3375368e37630fd606e3al6cbc]]

1

1

12/17/2019, 9:23 M

Case 1:18-cv-03970-AT Document 13 Filed 12/17/19 Page 1 of 28

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
MARK RUDOLPH ARSENIO
REED,
Petitioner,

HABEAS CORPUS
28 U.S.C. § 2254

v.

ROBERT TOOLE, et al.,
Respondents.

CIVIL ACTION NO.
1:18-CV-3970-AT-CMS

UNITED STATES MAGISTRATE JUDGE’S
FINAL REPORT AND RECOMMENDATION
Petitioner Mark Rudolph Arsenio Reed challenges via 28 U.S.C. § 2254 the
constitutionality of his 2011 DeKalb County convictions. The matter is before the
Court for consideration of the petition [1]; Respondent’s answer-response [6];
Petitioner’s reply [8]; Petitioner’s motion to amend [9], construed by the Court as a
supplement to Petitioner’s grounds four through fifteen [12]; and Petitioner’s
supplemental brief in support [11].1 For the reasons stated below, the undersigned

After he filed his reply, Petitioner filed a motion to amend, and the Court
construed the grounds therein (grounds sixteen through twenty-seven) as
supplemental argument on Petitioner’s grounds four through fifteen. (See Mot. for
Leave to File Amended Pet. at 9-11, ECF No. 9; Order of Mar. 20, 2019, ECF No.
i

Case 1:18-cv-03970-AT Document 13 Filed 12/17/19 Page 2 of 28

*

recommends that the petition and a certificate of appealability be denied and that this
action be dismissed.
I.

Background
In March 2007, Marlon Green died by a gunshot wound to the chest. Reedv.

State. 294 Ga. 877, 877-78,757 S.E.2d 84, 86-87 (2014). The DeKalb County grand
jury indicted Petitioner and his co-defendant Lashawn Chanel Payne (Petitioner s
girlfriend at the time of the crime) with malice murder, felony murder, aggravated
assault, theft by taking, theft by receiving stolen property, concealing the death of
another, and possession of a firearm during the commission of a felony, crimes that
occurred “on or about the 21st day of May, 2007[.]” (Resp’t Ex. 6(a) at 26-35 [7-6

12). Also, over a month after filing his motion to amend, and without obtaining
permission to file an additional pleading, Petitioner also filed a supplemental brief in
support. (Suppl. Br., ECF No. 11). In accord with the Court’s March 20,2019 Order,
the Court construes argument on grounds sixteen through twenty-seven as additional
argument on Petitioner’s grounds four through fifteen. Further, based on Petitioner’s
ample opportunity to present arguments in his petition, reply, and construed
supplement and based on the Court’s local rules, the Court considers only the first
twenty-five pages of the supplemental brief. Unless specifically mentioned and cited
in this Report and Recommendation, the construed supplemental argument and
supplemental brief add nothing that warrants particular discussion.
2

Case l:18-cv-03970-AT Document 13 Filed 12/17/19 Page 3 of 28

at 26-35]).2 Petitioner pleaded not guilty and proceeded to trial represented by
Karlyn Skall. (Id. at 52 [7-6 at 52]; Resp’t Ex. 6(b) at 216 [7-7 at 3]).
The evidence at trial established the following.
In 2006, [Petitioner] moved from California to Atlanta with his
girlfriend, LaShawn Payne, and her 13-year-old son, Cameron Thomas.
They began renting a home in DeKalb County from Marlon Green.
During their occupancy, [Petitioner] became suspicious that Green did
not actually own the property and was perpetrating a fraud on them.
After discovering that Green’s name was not on the deed to the property,
[Petitioner] and Payne stopped paying rent.
In early March 2007, Green drove to the home. Seeing Green drive up,
[Petitioner] told Payne to retrieve his shotgun. The two men argued in
the yard for some time and then entered the house together, still arguing.
[Petitioner] directed Green to sit down, asked Green who he really was,
and then grabbed the shotgun and shot Green in the chest. Green fell to
the floor, bleeding, and quickly died. Thomas, who was surreptitiously
watching the confrontation from the stairwell leading to the second floor
of the house, witnessed the shooting, though he feigned ignorance when
his mother came upstairs to check on him shortly thereafter.
[Petitioner], who told Payne she “[didn’t] have any choice in this,”
directed Payne to clean up the blood and other evidence of the crime.
[Petitioner] removed Green’s body, wrapped it in a tarp, and loaded it
into the trunk of Green’s car. [Petitioner] and Payne next drove to a
nearby abandoned home with a large wooded lot, where they buried the
body. [Petitioner] then drove Green’s car to Queens, New York, where

2 When citing to Respondent’s exhibits six(a) through (f), the state habeas
record, the Court includes in brackets a citation to the Court’s electronic docket
number and pagination.
3

*,

Case l:18-cv-03970-AT Document 13 Filed 12/17/19 Page 4 of 28

he abandoned it. At [Petitioner’s] direction, Payne followed him in her
car to New York, and the two drove back to Georgia together. They
continued living in the DeKalb County home and took further measures
to conceal all traces of the crime, repainting the interior walls and
sanding down the floors. In September 2007, after receiving notice of
the pending foreclosure on the property, they returned to California.
At some point after returning to California, Thomas confided in his
father about what he had witnessed. Local law enforcement were
contacted, and both Thomas and Payne were questioned. Payne gave
authorities a detailed statement about the crime and drew a map of the
location where Green’s body was buried. DeKalb police were notified,
whereupon they searched the location Payne had provided and found
skeletal remains, with shotgun pellets embedded therein, as well as a
plastic tarp and some items of jewelry and decayed clothing. Green’s
mother later identified the jewelry as having belonged to her son, and
mitochondrial DNA analysis further corroborated the identity of the
remains.
Reed. 294 Ga. at 877-78, 757 S.E.2d at 86-87.
The jury found Petitioner guilty on all charges, and on October 11, 2011, the
court imposed a total sentence of life plus twenty-five years. (Resp t Ex. 6(a) at 107OS, 110 [7-6 at 107-08,110]). Counsel filed a motion for a new trial, as amended by
new counsel Teri L. Smith, and as later amended by Petitioner pro se. (Id, at 111,
137-38,148-50,174-80 [7-6 at 111, 137-38,148-50,174-81]). On February 26,2013,
the trial court denied the motion for a new trial. (Id. at 187-92 [7-6 at 188-93]). Also
on February 26, 2013, the trial court vacated Petitioner’s convictions for theft by
4

Case l:18-cv-03970-AT Document 13 Filed 12/17/19 Page 5 of 28
^

*

taking and theft by receiving stolen property and, nunc pro tunc, adjusted Petitioner’s
sentence to life plus fifteen years.3 (Id. at 193-94 [7-6 at 194-95]).
Petitioner appealed, and, on March 28, 2014, the Georgia Supreme Court
affirmed the judgment against Petitioner. Reed, 294 Ga. at 882, 757 S.E.2d at 89.
On November 26, 2014, Petitioner filed a state habeas corpus petition, as later
amended, in the Superior Court of Tattnall County. (Resp’t Exs. 2, 3, ECF Nos. 72,7-3). By order filed on April 13,2017, the state habeas court denied relief. (Resp’t
Ex. 4, ECF No. 7-4). On June 4, 2018, the Georgia Supreme Court denied further
review. (Resp’t Ex. 5, ECF No. 7-5).
Petitioner now seeks federal relief and raises fifteen grounds for relief:
grounds one to three and seven, based on the trial court’s failure to assign counsel
during a limited amount of time after sentencing; grounds four to six, eight, ten to
thirteen, and fifteen, based on the incorrect date in the indictment; ground nine, based
on an alleged time bar against the prosecution; and ground fourteen, based on the
trial court’s denial of the motion for a new trial. (Pet. at 6A - 6G, ECF No. 1).

3

The Court does not discuss the theft charges, and, to the extent that
Petitioner’s grounds include any challenge to the vacated convictions for theft, those
challenges are moot and are not discussed.
5

Case 1:18-cv-0397O-AT Document 13 Filed 12/17/19 Page 6 of 28

N2N>

Respondent has filed an answer response; Petitioner has filed his reply; and the matter
is ready for disposition.
II.

Federal Habeas Corpus Standard
A federal court may issue a writ of habeas corpus on behalf of a person held

in custody pursuant to a judgment of a state court if that person is held in violation
of his rights under federal law. 28 U.S.C. § 2254(a). The opportunity for federal
relief, however, is limited. The Antiterrorism and Effective Death Penalty Act
(AEDPA), requires a petitioner to exhaust his state court remedies and requires
federal courts to give deference to state court adjudications. 28 U.S.C. § 2254(b)-(e).
Exhaustion requires a petitioner to “fairly present[] every issue raised in his
federal petition to the state’s highest court, either on direct appeal or on collateral
review.” Pope v. Sec’v for Den’t of Corr.. 680 F.3d 1271, 1284 (11th Cir. 2012)
(quoting Mason v. Allen. 605 F.3d 1114, 1119(11 th Cir. 2010)) (internal quotation
marks omitted). Further, federal relief under the AEDPA is limited to petitioners
who demonstrate that the state court adjudication resulted in a decision that “was
contrary to, or involved an unreasonable application of, clearly established Federal
law, as determined by the Supreme Court of the United States[,]” 28 U.S.C. §
2254(d)(1), or “was based on an unreasonable determination of the facts in light of
6

Case l:18-cv-03970-AT Document 13 Filed 12/17/19 Page 7 of 28
■

*

'*■

the evidence presented in the State court proceeding^]” 28 U.S.C. § 2254(d)(2). A
state court’s factual determinations are presumed correct unless the petitioner
presents clear and convincing evidence that those determinations were erroneous. 28
U.S.C. § 2254(e)(1).
“A state court’s adjudication is contrary to federal law if it ‘arrives at a
conclusion opposite to that reached by [the Supreme] Court on a question of law or
if the state court decides a case differently than [the Supreme] Court has on a set of
materially indistinguishable facts.’” Wellons v. Warden, 695 F.3d 1202, 1206 (11th
Cir. 2012) (alterations in original) (quoting Williams v. Taylor, 529 U.S. 362, 413
(2000)). “A state court’s adjudication is unreasonable if the state court ‘identifies the
correct governing legal principle from th[e] Court’s decisions but unreasonably
applies that principle to the facts of the prisoner’s case.

Id. (alteration in original)

(quoting Williams. 529 U.S. at 413). To show unreasonableness, “a state prisoner
must show that the state court’s ruling on the claim being presented in federal court
was so lacking in justification that there was an error well understood and
comprehended in existing law beyond any possibility for fairminded disagreement.”
Clark v. Attorney Gen.. Fla.. 821 F.3d 1270, 1282 (11th Cir. 2016) (quoting
Harrington v. Richter, 562 U.S. 86, 103 (2011)) (internal quotation marks omitted),
7

Case l:18-cv-03970-AT Document 13 Filed 12/17/19 Page 8 of 28
■*.

■

cert, denied
.,

9 __

U.S. _, 137 S. Ct. 1103 (2017); see also Sexton v. Beaudreaux, _ U.S.

138 S. Ct. 2555, 2558 (2018) (“When . . . there is no reasoned state-court

decision on the merits, the federal court ‘must determine what arguments or
theories . . . could have supported the state court’s decision; and then it must ask
whether it is possible fairminded jurists could disagree that those arguments or
theories are inconsistent with the holding in a prior decision of this Court. ’... If such
disagreement is possible, then the petitioner’s claim must be denied.” (quoting
Harrington. 562 U.S. at 86)).
In sum, the availability of collateral relief is limited, and the habeas petitioner
- now presumed guilty, not innocent - bears the burden of demonstrating his or her
right to collateral relief. See Ross v. Moffitt. 417 U.S. 600, 610-11 (1974) (stating
that a person once convicted is deemed guilty and “stripped of his presumption of
innocence”); Blankenship v. Hall. 542 F.3d 1253, 1274 (11th Cir. 2008) (stating that
“in habeas proceedings, unlike direct appeals, the petitioner bears the burden of
establishing his right to relief’).
This Court has reviewed the pleadings and exhibits and finds that the record
contains sufficient facts upon which the issues may be resolved.
evidentiary hearing is not required. See 28 U.S.C. § 2254(e)(2).
8

A federal

Case l:18-cv-03970-AT Document 13 Filed 12/17/19 Page 9 of 28
*

*

■

III.

Discussion
A.

Grounds Four - Six. Eight. Ten - Thirteen, and Fifteen, Based on
Challenge to Indictment

The indictment charged Petitioner with malice murder, felony murder,
aggravated assault, concealing the death of another, and possession of a firearm
during the commission of a felony, crimes committed “on or about the 21st day of
May, 2007[.]” (Resp’t Ex. 6(a) at 29-35 [7-6 at 29-35]). As set forth by the trial
court,
Law enforcement first learned of the murder in 2009, when accomplice
LaShawn Payne came forward and gave a police statement implicating
[Petitioner] and confessing her involvement in the concealment of the
body. The victim’s body was then exhumed from the makeshift grave
in an abandoned wooded area where [Petitioner] and Payne had buried
it in 2007. LaShawn Payne could not remember the exact date on which
[Petitioner] shot the victim in the chest but thought that it occurred in
May of 2007. The indictment alleged that [Petitioner] murdered the
victim “on or about the 21st day of May, 2007”.
(Resp’t Ex. 6(a) at 188 n.4 [7-6 at 189]).
On July 6,2011, more than two months before trial commenced on September
26, 2011, the state provided Petitioner with a demand for written notice of
Petitioner’s intent to offer an alibi defense. (Resp’t Ex. 6(a) at 48 [7-6 at 48]; Resp’t
Ex. 6(b) at 216 [7-7 at 3]). Therein, the state clarified the location of the crimes and
9

Case 1:18-cv-03970-AT Document 13 Filed 12/17/19 Page 10 of 28
«*

*

the crime dates — March 3, 2007 through March 10, 2007. (Resp’t Ex. 6(a) at 48 [76 at 48]).

As indicated elsewhere, Petitioner did not raise an alibi defense.

Additionally, “the prosecutor during opening argument informed the jury that the
date in the indictment was ‘incorrect’ and that the evidence would show the murder
occurred as early as March of 2007.” (Resp’t Ex. 6(a) at 188 n.4 [7-6 at 189]).
In his motion for a new trial, Petitioner raised several claims based on the
incorrect date in the indictment. (See id^ at 188 [7-6 at 189]). The trial court rejected
those claims and found, inter alia, (1) that a fatal-variance challenge to the indictment
was waived by failure to raise the issue at trial and that the challenge was meritless
because the indictment alleged a non-material date on which the offense occurred,
(2) that there was no amendment to the essential elements of the offense or
constructive amendment to the indictment by the prosecutor, and (3) that Petitioner’s
date-related claims were meritless and could not have provided a basis for quashing
or dismissing the indictment. (Id. at 189 [7-6 at 190]).
On direct appeal, Petitioner enumerated errors three, five, and ten based on the
incorrect murder date in the indictment: there was insufficient evidence based on the
date in the indictment; the prosecution improperly amended the indictment to
conform to the evidence; the prosecution’s improper amendment obstructed
10

Case l:18-cv-03970-AT Document 13 Filed 12/17/19 Page 11 of 28

Petitioner’s defense and violated due process; and trial counsel failed to properly
challenge the void indictment, by objection, motion to quash, or motion in arrest of
judgment. (Resp’t Ex. 6(f) at 893-96,901-06,922-29 [7-11 at 15-18,23-28,44-51]).
The Georgia Supreme Court stated and found as follows Several of [Petitioner’s] enumerations of error center on the fact that the
indictment cites the date of the murder as “on or about the 21st day of
May, 2007,” when in fact the evidence shows that the murder occurred
in early March of 2007. However,
[e]ven though it has been held that a definite date of an offense
should be alleged in an indictment, the state is not restricted to
proof of the date stated. It is sufficient if the evidence
demonstrates that the offense was committed at any time within
the statute of limitations.
(Footnotes omitted.) Jack Goger, Daniel’s Ga. Criminal Trial Practice,
§ 13-6 (2013-2014 ed.). Thus, except where the exact date of the
offense is alleged to be an essential element thereof or where the accused
raises an alibi defense, any variance between the date listed in the
indictment and the date on which the crime is proven to have occurred
is of no consequence. Id.: accord Eberhardt v. State. 257 Ga. 420(2), 359
S.E.2d 908 (1987).
Here, the May 21, 2007 date was not alleged to be an essential element
of any of the offenses charged, and [Petitioner] did not assert an alibi
defense. In addition, the allegations were sufficiently clear and specific
to afford [Petitioner] adequate notice of the charges he was facing and
to preclude future prosecution for the same offenses. See Roscoe v. State.
288 Ga. 775(3), 707 S.E.2d 90 (2011) (fatal variance between
allegations and proof will be found only if allegations do not sufficiently
inform the accused of the charges so as to enable him to present a
11

Case l:18-cv-03970-AT Document 13 Filed 12/17/19 Page 12 of 28

defense or are not adequate to protect the accused against future
prosecution for the same crimes). Therefore, the erroneous date cited in
the indictment provides no basis for reversal of [Petitioner’s]
convictions.
Reed. 294 Ga. at 879-80, 757 S.E.2d at 88. With regard to trial counsel’s assistance
on the incorrectly dated indictment, the court found, “we have already determined...
that the error did not render the indictment fatally defective. For this reason, trial
counsel did not render deficient performance in failing to object on this basis.” Id.,
294 Ga. at 882, 757 S.E.2d at 89.
Petitioner in his state habeas corpus petition again challenged the indictment
in regard to the incorrect date - the prosecutor impermissibly amended the indictment,
denying Petitioner a fair trial, and the indictment was constructively and
impermissibly amended and void, which resulted in Petitioner’s convictions being
defective and void. (See Resp’t Ex. 4 at 2-4, ECF No. 7-4). The state habeas court
rejected all of Petitioner’s claims and determined that Petitioner could not relitigate
matters that had been decided on direct appeal and that Petitioner’s claims were
meritless because the murder date was not an element of the charged offenses,
because there was no impermissible amendment to the indictment, and because the
verdict was consistent with the law and evidence. (Id. at 2-5).
12

Case l:18-cv-03970-AT Document 13 Filed 12/17/19 Page 13 of 28

In this Court, Petitioner raises the following grounds, all of which are based
on the incorrect May 2007 crime date in the indictment and the prosecutor s
&

.■

subsequent statement that crimes occurred as early as March 2007.
(4) The State prosecutor conducted an impermissible amendment of the indictment.

A

(5) An impermissible amendment to the indictment prejudiced and deprived
Petitioner of a defense at trial and denied him the right to a fair trial in violation of
his right to due process.
(6) There was a constructive amendment of the indictment.
(8) There was an impermissible amendment of the indictment to conform to the
evidence.
(10) The indictment was impermissibly amended to correct defects in the indictment
by striking from its allegations.
(11) The indictment in Petitioner’s case is void.
(12) “Defective verdict, as a matter of law, jury verdict not consistent with the law
and evidence, verdict invades the province of the court” because, in light of the void
indictment, the court was required to enter a directed verdict in Petitioner’s favor.4
(13) The sentence is void and unconstitutional based on the incorrect date in the
indictment.5

4 (See Mot. for Leave to File Amended Pet. at 9-11).
/

5 (See Mot. for Leave to File Amended Pet. at 11-12).
13

/

Case l:18-cv-03970-AT Document 13 Filed 12/17/19 Page 14 of 28

(15) The allegations in the indictment, based on an incorrect date, and the proof
adduced at trial do not correspond.6
(Pet. at 6D - 6G; Mot. for Leave to File Amended Pet. at 2-11).
Respondent asserts that this Court should defer to the state court s decision.
(Resp’t Br. at 7-14, ECF No. 6-1). In reply, Petitioner appears to assert that the state
habeas court incorrectly deferred to the Georgia Supreme Court s decision on the
indictment claims and that deference by this Court is unwarranted because the
Georgia Supreme Court lacked authority to rule on a challenge to the indictment that
was not properly preserved at the trial level. (Pet’r Reply at 8, 13, ECF No. 9).
Petitioner, without detail or explanation, also contends that he could have shown an
alibi if he had received notice of the correct time of the crime. (Suppl. Br. at 19).
The Fifth Amendment states that “[n]o person shall be held to answer for a
capital, or otherwise infamous crime, unless on a presentment or indictment of a
Grand Jury ....” U.S. Const, amend. V. The Fifth Amendment right to indictment
by a grand jury, however, has not been incorporated via the Fourteenth Amendment s
Due Process Clause to apply against the states. Heath v. Sec’y, Fla. Dep’t of Corr.,

/

6 (See Mot. for Leave to File Amended Pet. at 13-14).
14

/

Case 1:18-CV-03970-AT Document 13 Filed 12/17/19 Page 15 of 28
% '

717 F.3d 1202, 1204-05 (11th Cir. 2013) (citing Grim v. Sec’v. Fla. Dep’t of Corn.
705 F.3d 1284,1287 (11th Cir. 2013)). Under the Due Process Clause and the Sixth
Amendment, “the accused shall enjoy the right... to be informed of the nature and
cause of the accusation ....” U.S. Const, amend. VI: see also In re Oliver. 333 U.S.
257,273 (1948) (stating that this Sixth Amendment right to be informed is applicable
to the states through the Due Process Clause of the Fourteenth Amendment).
Petitioner’s claims based on the indictment fail to state a constitutional claim
because the Fifth Amendment right to presentment or indictment by a grand jury has
not been incorporated under the Due Process Clause of the Fourteenth Amendment
to apply against the states. Further, under due process requirements, Petitioner was
adequately informed of the nature and cause of the charges against him. Petitioner
fails to show that no reasonable reviewing court could have concluded that Petitioner
received adequate notice of the charges he was facing, including notice in regard to
the times and place that would be relevant to an alibi defense.7 See Hall v. Adult

7 Even if the state habeas court was not required to defer to the Georgia
Supreme Court’s decision on the indictment, the state habeas court otherwise found
that Petitioner’s claims based on the indictment were meritless. Petitioner does not
show that either the Georgia Supreme Court’s or the state habeas court’s
determination is unreasonable under United States Supreme Court precedent.
15

Case l:18-cv-03970-AT Document 13 Filed 12/17/19 Page 16 of 28

Parole Auth., 1:10CV1359, 2012 WL 1571519, at **18-19 (N.D. Ohio Apr. 11,
2012) (construing state petitioner’s challenge to the indictment as a SixthAmendment notice challenge and finding that charge for conduct occurring on an
unstated date within a sixteen-year period did not violate due process when other
material - including discovery material - provided the defendant with a clear
understanding of the charges and specifics thereon so that he could plan a defense),
report and recommendation adopted. 1:10CV1359, 2012 WL 1571518 (N.D. Ohio
May 1, 2012). Petitioner fails to show that the state’s rejection of his indictment
claims was contrary to or involved an unreasonable application of federal law.
Petitioner’s federal grounds based on his challenge to the indictment fail.
B.

Grounds One through Three and Seven, Based on Temporary Lack
of Counsel

Skall, who represented Petitioner at trial and sentencing, informed the
sentencing court that she would be filing Petitioner’s motion for a new trial
immediately after sentencing and asked to be excused. (See Resp’t Ex. 6(a) at 111
[7-6 at 111]; Resp’t Ex. 6(e) at 788, 796 [7-10 at 3, 11]). The court excused Skall,
and Skall timely filed the motion for a new trial. (Resp’t Ex. 6(a) at 111 [7-6 at 111];
Resp’t Ex. 6(e) at 796 [7-10 at 11]).

16

Case 1:18-CV-03970-AT Document 13 Filed 12/17/19 Page 17 of 28

In a document received by the court in May 2012, Petitioner, pro se, requested
substituted counsel of record, and new counsel Teri L. Smith filed an entry of
appearance in July 2012. (Resp’t Ex. 6(a) at 113-15, 131 [7-6 at 113-15, 131]).
Smith subsequently filed two amendments to the motion for a new trial. (Id. at 13738,148-50 [7-6 at 137-38,148-50]).
On January 8,2013, at the initial hearing on the motion for a new trial, the trial
court allowed Petitioner to proceed pro se after giving the full panoply of warnings
under Faretta v. California. 422 U.S. 806 (1975), and continued the hearing.8 (See
Resp’t Ex. 6(a) at 188 [7-6 at 187]). Also at the hearing, Petitioner filed a pro se
motion for leave of court to file a motion in arrest of judgment,9 which the trial court
considered and denied. (Id. at 153-54, 164 [7-6 at 153-54, 164]).

8 Petitioner asked for a continuance to prepare an amended motion that would
“contain all the issues to be explored before this court,” and the court granted the
continuance. (Resp’t Ex. 6(e) at 808-10 [7-10 at 23-25]).
9 Therein, Petitioner asked that the time for filing a motion in arrest of
judgment be extended because he had been without counsel during the time for filing
a motion in arrest of judgment. (Resp’t Ex. 6(a) at 154 [7-6 at 154]). As stated in
the discussion below, any motion in arrest of judgment should have been filed by
November 6, 2011.
17

Case l:18-cv-03970-AT Document 13 Filed 12/17/19 Page 18 of 28

Petitioner, pro se, subsequently amended his motion for a new trial. (Id. at
174-80 [7-6 at 174-81]). The continued hearing was held on February 12, 2013, and
on February 26, 2013, the trial court denied the motion for a new trial. (IcL at 18792 [7-6 at 188-93]).
On direct appeal, in enumeration of error seven, Petitioner argued that he was
deprived of due process and court access, under the Fifth, Sixth, and Fourteen
Amendments, when the trial court excused trial counsel and he was without counsel
after sentencing until July 2012, which made Petitioner unable to file a timely motion
in arrest of judgment in order to challenge the indictment.10 (Resp t Ex. 6(f) at 91315 [7-11 at 35-37]).
The Georgia Supreme Court explicitly rejected the access to courts claim and
implicitly rejected the Sixth Amendment and due process claim —
Contrary to [Petitioner’s] assertion, his right of access to the court was
not improperly limited when the trial court denied his request to file an
untimely motion in arrest of judgment. [Petitioner] has been afforded
ample opportunity, both through counsel and pro se, to assert all of his
enumerations of error in his motion for new trial and now on appeal.

10 In enumeration of error ten, alleging ineffective assistance of trial counsel,
Petitioner indicated that the motion in arrest of judgment would have served to
challenge the indictment. (Resp’t Ex. 6(f) at 929 [7-11 at 51]).
18

Case 1:18-CV-03970-AT Document 13 Filed 12/17/19 Page 19 of 28

Reed. 294 Ga. at 881, 757 S.E.2d at 88.
Petitioner raised the matter again in his state habeas proceedings, and the state
habeas court declined addressing the issue again as it had been addressed by the
Georgia Supreme Court. (Resp’t Ex. 4 at 3).
In his federal grounds one through three and seven, Petitioner challenges the
state trial court’s failure to provide counsel during the time when a motion in arrest
of judgment (which he asserts is the proper vehicle for raising challenges to the
indictment) could have been filed, which (1&2) deprived Petitioner of the
opportunity to pursue such motion, (3) provides cause for the default of grounds
(challenges to the indictment) that should have been raised in such motion, and
(7) restricted Petitioner’s access to the court to file a motion in arrest of judgment.
(Pet. at 6A, 6B, 6E; see Pet’r Reply at 10).
Respondent argues that grounds one through three are new and procedurally
defaulted, that ground three fails to state a constitutional claim, and that ground seven
fails to state a claim for relief as it deals with an infirmity in state collateral
proceedings. (Resp’t Br. at 4-7,15). Petitioner replies that he did raise the issue in
state court. (Pet’r Reply at 1-4).

19

Case l:18-cv-03970-AT Document 13 Filed 12/17/19 Page 20 of 28
A

* ’

Ground three fails as Petitioner’s challenge to the indictment was addressed
by both the Georgia Supreme Court and the state habeas court. See supra III. A.
Petitioner does not need to overcome a default. Accordingly, ground three provides
no ground for relief.
Otherwise, to the extent that the state provides for direct post-conviction
review, “[t]he fourteenth amendment guarantees a constitutional right of access to
state courts which assures the indigent defendant an adequate opportunity to present
his claims fairly.” Bvrd v. Wainwright, 722 F.2d 716, 718 (11th Cir. 1984) (citing
Ross v. Moffitt. 417 U.S. 600, 606-09, 616 (1974)). Federal due process guarantees
fundamental fairness - the “denial of due process is the failure to observe that
fundamental fairness essential to the very concept of justice. In order to declare a
denial of it we must find that the absence of that fairness fatally infected the trial; the
acts complained of must be of such quality as necessarily prevents a fair trial.”
Lisenba v. People of State of California. 314 U.S. 219,236 (1941). “[A] trial is unfair
if the accused is denied counsel at a critical stage of his trial.” United States v. Cronic,
466 U.S. 648, 659 (1984). Generally, under the Sixth Amendment, the right to
counsel extends to a pre-appeal, motion for a new trial and to direct appeal. See
United States v. Berger. 375 F.3d 1223, 1226 (11th Cir. 2004). However, “it does
20

Case l:18-cv-03970-AT Document 13 Filed 12/17/19 Page 21 of 28
jK

not follow that every lapse in representation, however brief and inconsequential,
deprives a criminal defendant of his rights under the Sixth Amendment. If the lapse
(though always regrettable) does not prejudice the defendant in defending himself
against the criminal charge, it does not justify nullifying his conviction.

Young v,

Duckworth. 733 F.2d 482, 483-84 (7th Cir. 1984) (dealing with lapse in
representation between first court appearance and arriagnment); see also United
States v. Espinoza-Guerrero, 205 Fed. Appx. 759, 760 (11th Cir. 2006) (finding that
court’s failure to appoint new counsel within seven-day time period allowed for
bringing a motion for a new trial to attack trial counsel’s assistance was not plain
error when the defendant would be able to challenge trial counsel s assistance in a 28
U.S.C. § 2255 motion).
Under Georgia law, a challenge to the substantive sufficiency of an indictment
may be raised in a general demurrer and, if no demurrer is raised before judgment,
the remedies are arrest of judgment or habeas corpus. Harris v. State, 258 Ga. App.
669, 670-71, 574 S.E.2d 871, 872-73 (2002); O.C.G.A. § 17-9-61 (a) (“When a
judgment has been rendered, either party may move in arrest thereof for any defect
not amendable which appears on the face of the record or pleadings.”). A motion in
arrest ofjudgment must be made during the term in which the judgment was obtained.
21

Case l:18-cv-03970-AT Document 13 Filed 12/17/19 Page 22 of 28

O.C.G.A. § 17-9-61(b). The term of Court for DeKalb County commences on the
first Monday in January, March, May, July, September, and November. O.C.G.A.
§ 15-6-3(37). Petitioner’s October 11, 2011 sentence was imposed within the term
of court that began on September 5, 2011, and ended on November 6, 2011, and any
motion in arrest of judgment was due by November 6, 2011.
There is no controversy that Petitioner was represented through trial and
sentencing and for his proceedings on the motion for a new trial (until he voluntarily
decided to proceed pro se on the motion for a new trial and appeal). The issue is
whether a lapse in active representation between October 11 and November 6, 2011,
when Petitioner could have filed a timely motion in arrest of judgment, deprived him
of his Sixth Amendment right to counsel or due process and right to court access,
which constitutional claims the Court construes Petitioner to raise in federal grounds
one, two, and seven and that he fairly raised in the Georgia Supreme Court.
Petitioner has not shown that the lapse denied him the right to counsel under
the Sixth Amendment, prejudiced him, or deprived him of fundamental fairness or
an adequate opportunity to present his claims fairly. The post-sentencing lapse did
not deprive Petitioner of the opportunity, while represented by trial counsel, to
contest the substance of the indictment via a demurrer or via a motion to quash during
22

Case 1:18-CV-03970-AT Document 13 Filed 12/17/19 Page 23 of 28
\

trial. See McKay v. State. 234 Ga. App. 556, 559, 507 S.E.2d 484, 488 (1998)
(discussing demurrers and motion to quash). There is nothing to indicate that trial
counsel was prohibited from filing a protective motion in arrest of judgment, as she
did with the motion for a new trial.11 Further, Petitioner filed a pro se request for
substitute counsel in May 2012, and there appears to be no reason that he could not
have done so before November 6, 2011 or that an earlier request would have been
disregarded. Additionally, Petitioner was able on direct appeal to challenge the
indictment, and the Georgia Supreme Court found no defect in the indictment.
Petitioner also was able to raise the indictment issue in the state habeas court, which
found the indictment claims to be without merit. Therefore, a demurrer or a post­
judgment motion in arrest of judgment would not have been successful. Petitioner
fails to show that no reasonable reviewing Court could have rejected a claim that the
lapse violated Petitioner’s right to counsel, court access, and/or due process. Grounds
one through three and seven fail.

11 Trial counsel’s failure to do so would be a matter related to counsel’s
effectiveness not a matter related to the denial of counsel.
23

Case 1:18-cv-03970-AT Document 13 Filed 12/17/19 Page 24 of 28

A *

C.

Ground Nine

On direct appeal, Petitioner argued that by admitting that the date in the
indictment was incorrect, the state “set the time bar against its own prosecution” and
failed to show that the offenses were prosecuted within the statute of limitations.
(Resp’t Ex. 6(f) at 907-12 [7-11 at 29-34]). The Georgia Supreme Court found that
the argument was without merit:
There is no limitation period for murder, see OCGA § 17-3-1 (a), and the
other offenses of which Reed was charged and convicted are subject to
a four-year limitation period. ... As Reed was indicted in August 2009
for offenses occurring in March 2007, his prosecution was well within
the application limitation period.
Reed, 294 Ga. at 880 n.3, 757 S.E.2d at 88 n.3.
In federal ground nine, Petitioner again asserts that as a result of the incorrect
date in the indictment the state “set the time bar” against prosecuting Petitioner on
the charged offenses, in violated of federal due process. (Pet. at 6E; Mot. for Leave
to File Am. Pet. at 6-7). Respondent urges the Court to defer to the Georgia Supreme
Court’s decision. (Resp’t Br. at 14-15).
“We have stated many times that federal habeas corpus relief does not lie for
errors of state law.” Swarthout v, Cooke. 562 U.S. 216, 219 (2011) (quoting Estelle
w McGuire, 502 U.S. 62, 67 (1991)) (internal quotation marks omitted). State law
24

Case l:18-cv-03970-AT Document 13 Filed 12/17/19 Page 25 of 28
♦ '

statutes of limitations for the prosecution of state crimes, and the interpretation of
those statutes, are matters of state law and provide no grounds for federal habeas
corpus relief. See Belvin v. Addison. 561 F. App’x 684, 686 (10th Cir. 2014) (“[A]
state’s misapplication of its own statute of limitations does not violate federal due
process per se.” (citing cases including Erickson v. Sec’v for Dep’t of Corr., 243 F.
App’x 524, 527 (11th Cir. 2007))). To the extent that a state-law matter has been
exhausted as a federal due process claim, the federal court reviews a state law issue
only to determine whether it “so infused the trial with unfairness as to deny due
process of law.” Taylor v. Sec’v. Florida Dep’t of Corr.. 760 F.3d 1284, 1295 (11th
Cir. 2014) (quoting Lisenba. 314 U.S. at 228) (internal quotation marks omitted).
It does not appear that Petitioner exhausted ground nine as a federal due
process claim in state court. Further, the Court perceives no error in the state court’s
decision on a matter of state law that rises to the level of offending due process.
Ground nine fails.
D.

Ground Fourteen

In his state habeas petition, Petitioner argued that the trial court abused its
discretion in denying the motion for a new trial. (See Resp’t Ex. 4 at 5). The state
habeas court denied the claim as meritless. (Id.).
25

Case l:18-cv-03970-AT Document 13 Filed 12/17/19 Page 26 of 28
*

*\

m

‘

In federal ground fourteen, Petitioner again asserts that the trial court abused
its discretion in denying the motion for a new trial — Petitioner asserts that the court
should have reversed his conviction when the state, at the hearing on the motion for
a new trial, stipulated that no exact date was established for the crimes. (Pet. at 6G;
Mot. for Leave to File Amended Pet. at 13; see also Resp’t Ex. 6(e) at 827 [7-10 at
42] (state stipulating, at hearing on motion for a new trial, that the date of the exact
date of the murder was not established). Respondent states that this claim presents a
matter of state law and provides no ground for federal relief. (Resp’t Br. at 16).
The Court agrees with Respondent that whether the trial court abused its
discretion in denying the motion for a new trial is a matter of state law. See Swarthout,
562 U.S. at 219. Further, as elsewhere discussed, Petitioner has not shown that his
federal constitutional rights were violated in regard to the underlying issue of the
incorrect date in the indictment.
IV.

Certificate of Appealability
Under Rule 11 of the Rules Governing § 2254 Cases, “[t]he district court must

issue or deny a certificate of appealability when it enters a final order adverse to the
applicant. ... If the court issues a certificate, the court must state the specific issue
or issues that satisfy the showing required by 28 U.S.C. § 2253(c)(2).” The Court
26

/

Case l:18-cv-03970-AT Document 13 Filed 12/17/19 Page 27 of 28

Kv

will issue a certificate of appealability “only if the applicant has made a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). The
applicant “must demonstrate that reasonable jurists would find the district court’s
assessment of the constitutional claims debatable or wrong.” Melton v. Sec’y, Fla.
Dep’t of Corr., 778 F.3d 1234, 1236 (11th Cir. 2015) (quoting Slack v. McDaniel.
529 U.S. 473, 484 (2000)) (internal quotation marks omitted).
When the district court denies a habeas petition on procedural
grounds without reaching the prisoner’s underlying constitutional claim,
the prisoner in order to obtain a COA, still must show both (1) “that
jurists of reason would find it debatable whether the petition states a
valid claim of the denial of a constitutional right” and (2) “that jurists of
reason would find it debatable whether the district court was correct in
its procedural ruling.”
Lambrix v. Sec’v. DOC. 872 F.3d 1170,1179 (11th Cir.) (quoting Slack. 529 U.S. at
484), cert, denied. _ U.S. _, 138 S. Ct. 312 (2017).
The undersigned recommends that a COA be denied because it is not
reasonably debatable that Petitioner has failed to meet his burden under the AEDPA.
If the Court adopts this recommendation and denies a COA, Petitioner is advised that
he “may not appeal the denial but may seek a certificate from the court of appeals
under Federal Rule of Appellate Procedure 22.” Rule 11(a), Rules Governing § 2254
Cases in the United States District Courts.
27

r
Case 1:18-CV-03970-AT Document 13 Filed 12/17/19 Page 28 of 28

V.

Conclusion
For the reasons stated above,
IT IS RECOMMENDED that the instant petition [1] be DENIED, that a

certificate of appealability be DENIED, and that this action be DISMISSED.
The Clerk is DIRECTED to withdraw the reference to the Magistrate Judge.
IT IS SO ORDERED, RECOMMENDED, and DIRECTED, this 17th day
of December, 2019.

VJ

CATHERINE M. SALINAS
UNITED STATES MAGISTRATE JUDGE

28

APPENDIX-D -1 Order of the Georgia Supreme Court, denying
June
4
Cause
Certificate
of
Probable
20218............................................. 1

< •

SUPREME COURT OF GEORGIA
Case No. S I7H1626
Atlanta, June 04, 2018

The Honorable Supreme Court met pursuant to adjournment.
The following order was passed.

MARK R.A. REED v. ROBERT TOOLE, WARDEN
From the Superior Court of Tattnall County.

Upon consideration of the application for certificate of probable cause to appeal the
denial of habeas corpus, it is ordered that it be hereby denied. AH the Justices concur.

Trial Court Case No. 2014-HC-99
SUPREME COURT OF THE STATE OF GEORGIA
Clerk's Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court
hereto affixed the day and year last above written.

Jus C-

, Chief Deputy Clerk

A '
APPENDIX-D- 2 Order of the Georgia Supreme Court, denying
Direct Appeal,
March
juridiction,

8,

2014

No
1-11

subject

matter

A *
In the Supreme Court of Georgia

Decided: March 28, 2014

S13A1583. REED v. THE STATE.
HUNSTEIN, Justice.
Appellant Mark Reed was convicted of malice murder and other offenses
in connection with the 2007 shooting death of Marlon Green. Proceeding pro
se, Reed appeals the denial of his motion for new trial on numerous grounds.
Finding no error, we affirm.1
'The crimes were committed in March 2007. Reed and co-indictee LaShawn
Payne were indicted in August 2009 by a DeKalb County grand jury for malice
murder, felony murder, aggravated assault, theft by taking, theft by receiving,
concealing the death of another, and possession of a firearm during commission of
a felony. At the conclusion of a September 2011 jury trial in which Payne testified
under a plea deal for the State, Reed was convicted on all counts. Reed was
sentenced to life imprisonment for murder, a consecutive ten-year term for theft by
taking, another consecutive ten-year term for concealing a death, a concurrent tenyear term for theft by receiving, and a consecutive five-year term for firearm
possession, for a total term of life plus 25 years. The remaining charges merged or
were vacated by operation of law. A timely motion for new trial was filed on October
11, 2011. After appointment of new appellate counsel, the new trial motion was
amended on November 27,2012 and again on January 3,2013. Reed then filed a pro
se motion for leave to file an untimely motion in arrest of judgment, which was
denied. At a hearing held on January 8, 2013, Reed requested leave to proceed pro
se, which the trial court granted. Thereafter, Reed filed two amended motions for
new trial, and a hearing was held on February 12, 2013. The new trial motion was
denied on February 26, 2013; by separate order on the same date, the trial court
vacated Reed’s convictions and sentences for theft by taking and theft by receiving
on the ground that they were mutually exclusive, Ingram v. State, 268 Ga. App. 149

A#
Viewed in the light most favorable to the verdict, the evidence adduced
at trial established as follows. In 2006, Reed moved from California to Atlanta
with his girlfriend, LaShawn Payne, and her 13-year-old son, Cameron Thomas.
They began renting a home in DeKalb County from Marlon Green. During their
occupancy, Reed became suspicious that Green did not actually own the
property and was perpetrating a fraud on them. After discovering that Green’s
name was not on the deed to the property, Reed and Payne stopped paying rent.
In early March 2007, Green drove to the home. Seeing Green drive up,
Reed told Payne to retrieve his shotgun. The two men argued in the yard for
some time and then entered the house together, still arguing. Reed directed
Green to sit down, asked Green who he really was, and then grabbed the shotgun
and shot Green in the chest. Green fell to the floor, bleeding, and quickly died.
Thomas, who was surreptitiously watching the confrontation from the stairwell
leading to the second floor of the house, witnessed the shooting, though he
feigned ignorance when his mother came upstairs to check on him shortly

(5) (601 SE2d 736) (2004), and ordered Reed resentenced to life plus a 15-year
consecutive term. Reed filed a pro se notice of appeal on March 27, 2013. The
appeal was docketed to the September term of this Court and was thereafter submitted
for decision on the briefs.
2

r
/. *

thereafter. •
Reed, who told Payne she “[didn’t] have any choice in this,” directed
Payne to clean up the blood and other evidence of the crime. Reed removed
Green’s body, wrapped it in a tarp, and loaded it into the trunk of Green’s car.
Reed and Payne next drove to a nearby abandoned home with a large wooded
lot, where they buried the body. Reed then drove Green’s car to Queens, New
York, where he abandoned it. At Reed’s direction, Payne followed him in her
car to New York, and the two drove back to Georgia together. They continued
living in the DeKalb County home and took further measures to conceal all
traces of the crime, repainting the interior walls and sanding down the floors.
In September 2007, after receiving notice of the pending foreclosure on the
property, they returned to California.
At some point after returning to California, Thomas confided in his father
about what he had witnessed. Local law enforcement were contacted, and both
Thomas and Payne were questioned. Payne gave authorities a detailed statement
about the crime and drew a map of the location where Green’s body was buried.
DeKalb police were notified, whereupon they searched the location Payne had
provided and found skeletal remains, with shotgun pellets embedded therein, as
3

f
Jt, *

well as a plastic tarp and some items of jewelry and decayed clothing. Green’s
mother later identified the jewelry as having belonged to her son, and
mitochondrial DNA analysis further corroborated the identity of the remains.
1. Though Reed has not specifically enumerated the general grounds, we
find that the evidence as summarized above was sufficient to enable a rational
trier of fact to conclude beyond a reasonable doubt that Reed was guilty of the
crimes for which he was convicted and sentenced. Jackson v. Virginia. 443 U.
S. 307 (99 SCt 2781, 61 LE2d 560) (1979).
2. Reed contends that the trial court erred in allowing Payne to testify
regarding Reed’s threats to harm her and her family if she failed to cooperate
with him after the murder, as well as physical and sexual abuse Reed inflicted
upon her both before and after the murder. Reed moved in limine to exclude
such testimony, arguing that it was not relevant to the issues in the case and that
it improperly placed his character in issue. The trial court held the testimony
admissible to explain Payne’s state of mind and conduct in the aftermath of the
murder.
We find no abuse of discretion in this ruling. Payne was clearly the
State’s star witness, and the defense’s strategy was primarily to attack her
4

r

*

*

credibility by questioning why she had failed to report the crimes for so long
and suggesting that she came forward only when she needed leverage with
police regarding another matter. The State thus properly sought to adduce
Payne’s testimony regarding Reed’s abuse and threats to rebut this line of attack
by showing that Payne’s conduct was driven by fear. As we have noted,
“[ejvidence that is material in explaining the conduct of [a] witness does not
become inadmissible simply because defendant's character is incidentally put in
issue.” Hall v. State. 264 Ga. 85, 86 (2) (441 SE2d 245) (1994); accord Dyers
v. State. 277 Ga. 859 (2) (596 SE2d 595) (2004). The defense made an issue of
Payne’s conduct in failing to come forward, and the evidence of Reed’s threats
and abuse was relevant to explaining that conduct.2
3. Several of Reed’s enumerations of error center on the fact that the

2To the extent Reed now asserts error, with regard to this evidence, in the trial
court’s failure to comply with Uniform Superior Court Rule 31.3 (requiring prior
notice and hearing as to admissibility of similar transaction evidence), this argument
was waived, as Reed’s counsel conceded at the hearing on the motion in limine that
JL, “[t]his is not similar transaction evidence.” See Goodman v. State. 293 Ga. 80 (3)
(742 SE2d 719) (2013) (defendant waived argument regarding non-compliance with
Rules 31.1 and 31.3 by failing to object on such grounds at trial); Jones v. State. 239
Ga. App. 832 (1) (a) (521 SE2d 614) (1999) (trial counsel’s concession at trial that
the Rule 31.1 and 31.3 notice and hearing requirements did not apply constituted an
X affirmative waiver of the issue on appeal).
5

l

4

indictment cites the date of the murder as “on or about the 21st day of May,
2007,” when in fact the evidence shows that the murder occurred in early March
of 2007. However,
[e]ven though it has been held that a definite date of an offense
should be alleged in an indictment, the state is not restricted to
proof of the date stated. It is sufficient if the evidence demonstrates
that the offense was committed at any time within the statute of
limitations.
(Footnotes omitted.) Jack Goger, Daniel’s Ga. Criminal Trial Practice, § 13-6
(2013-2014 ed.). Thus, except where the exact date of the offense is alleged to
be an essential element thereof or where the accused raises an alibi defense, any
variance between the date listed in the indictment and the date on which the
crime is proven to have occurred is of no consequence. Id; accord Eberhardt v.
State. 257 Ga. 420 (2) (359 SE2d 908) (1987).

Here, the May 21, 2007 date was

not alleged to be an essential element of any of the offenses charged, and Reed
did not assert an alibi defense. In addition, the allegations were sufficiently
clear and specific to afford Reed adequate notice of the charges he was facing
and to preclude future prosecution for the same offenses. See Roscoe v. State.
♦ 288 Ga. 775 (3) (707 SE2d 90) (2011) (fatal variance between allegations and
proof will be found only if allegations do not sufficiently inform the accused of
6

■

**

the charges so as to enable him to present a defense or are not adequate to
protect the accused against future prosecution for the same crimes). Therefore,
the erroneous date cited in the indictment provides no basis for reversal of
Reed’s convictions.3
4. Reed also claims that the State failed to prove definitively the identity
of the victim’s skeletal remains and therefore failed to establish the corpus
delicti by proof beyond a reasonable doubt. See Benson v. State.

Ga.__(1)

(754 SE2d 23, 27) (2014) (“corpus delicti is established by proof ‘that the
person alleged in the indictment to have been killed is actually dead, and second,
that the death was caused or accomplished by violence, or other direct criminal
agency of some other human being’”). Here, the State’s DNA expert testified
that, though mitochondrial DNA testing is not capable of establishing a
definitive “match” to a single individual, her testing in this case established that
the DNA sequence from the femur bone recovered from the burial site was the

3To the extent Reed also contends in this regard that his prosecution occurred
outside the statute of limitations, this argument is meritless. There is no limitation
period for murder, see OCGA § 17-3-1 (a), and the other offenses of which Reed was
charged and convicted are subject to a four-year limitation period. See id. at (c). As
Reed was indicted in August 2009 for offenses occurring in March 2007, his
prosecution was well within the application limitation period.
7

• f

%

same as the sequence revealed from testing a DNA sample from Green’s mother.
Based on this finding, the expert testified that she “cannot exclude” Green as
being the source of the DNA sample she tested, and that such a finding is the
most definitive conclusion this type of DNA testing can generate.

This

evidence, together with Green’s mother’s testimony that the ring and beads
recovered from the burial site belonged to her son, was plainly sufficient to
establish beyond a reasonable doubt that the victim whose remains were
*

recovered was, in fact, Green. See Edgehill v. State. 253 Ga. 343 (1) (320 SE2d
176) (1984) (testimony that jewelry and clothes found on the victims were
articles belonging to them, together with forensic expert’s conclusions based on
dental records, held sufficient to identify the victims); Reddick v. State. 202 Ga.
209 (2) (42 SE2d 742) (1947) (corpus delicti proven in part by the ring worn by
the victim and identified by the victim’s children).
5. Contrary to Reed’s assertion, his right of access to the court was not
improperly limited when the trial court denied his request to file an untimely
motion in arrest ofjudgment. Reed has been afforded ample opportunity, both
through counsel and pro se, to assert all of his enumerations of error in his
motion for new trial and now on appeal.
8

• *>. |>

6. Reed contends that there was insufficient evidence to corroborate the
testimony of Payne, an admitted accomplice. Under former OCGA § 24-4-8,4
“[i]n felony cases where the only witness is an accomplice, the testimony of a
single witness is not sufficient and must be supported by the testimony of at
least one other witness or by corroborating circumstances.” (Citations and
punctuation omitted.) Hamm v. State. S13A1696, slip op. at 6 (decided March
17, 2014).

Here, the murder, aggravated assault, and firearm possession

offenses were corroborated by the testimony of Payne’s son, Cameron Thomas,
an eyewitness to the shooting. With regard to the concealing of a death offense,
though there were no witnesses other than Payne with firsthand knowledge
about the secreting and burial of Green’s body, there was ample circumstantial
corroboration in the form of the skeletal remains unearthed from the precise
location where Payne told police they had buried the body.

See id.

(corroborating evidence may be circumstantial). This enumeration is without
merit.
7. Reed also asserts that trial counsel was ineffective (a) for failing to

4Under the new Georgia Evidence Code, effective for trials conducted on or
after January 1, 2013, this concept is now codified at OCGA § 24-14-8.
9

* . <*

seek to quash or otherwise object to the indictment, based on its citing an
erroneous date of offense, and for failing to request a limiting instruction as to
the error; and (b) for failing to request a jury instruction on voluntary
manslaughter. To establish ineffective assistance of counsel, a defendant must
show that his trial counsel’s performance was professionally deficient and that
but for such deficient performance there is a reasonable probability that the
result of the trial would have been different. Strickland v. Washington. 466 U.
S. 668,695 (104 SCt 2052, 80 LE2d 674) (1984); Weslevv. State. 286 Ga. 355
(3) (689 SE2d 280) (2010). To prove deficient performance, one must show
that his attorney “performed at trial in an objectively unreasonable way
considering all the circumstances and in the light of prevailing professional
norms.” Romer v. State. 293 Ga. 339, 344 (3) (745 SE2d 637) (2013). Courts
reviewing ineffectiveness claims must apply a strong presumption that counsel’s
conduct fell within the wide range of reasonable professional performance. Id.
Thus, decisions regarding trial tactics and strategy may form the basis for an
ineffectiveness claim only if they were so patently unreasonable that no
competent attorney would have followed such a course. Id. If the defendant
fails to satisfy either the “deficient performance” or the “prejudice” prong of the
10

*>

s

4

Strickland test, this Court is not required to examine the other. See Green v.
State. 291 Ga. 579 (2) (731 SE2d 359) (2012).
(a) With regard to the date listed in the indictment, we have already
determined in Division 3 that the error did not render the indictment fatally
defective. For this reason, trial counsel did not render deficient performance in
failing to object on this basis. See Wesley. 286 Ga. at 356 (failure to make
meritless objection does not constitute deficient performance).
(b) As to the failure to request an instruction on voluntary manslaughter,
even if we were to find that there was slight evidence necessitating the giving
of such an instruction upon request, see Harris v. State. 263 Ga. 492 (2) (435
SE2d 671) (1993), we cannot find that trial counsel’s performance was
objectively unreasonable given Reed’s failure to adduce any testimony from trial
counsel at the new trial hearing. See Davis v. State. 280 Ga. 442,443 (2) (629
SE2d 238) (2006) (where trial counsel does not testify at new trial hearing, “it
is extremely difficult to overcome th[e] presumption” that trial counsel’s
conduct fell “within the wide range of reasonable professional assistance”).
Accordingly, all of Reed’s enumerations of error lack merit, and we
therefore affirm.
Judgment affirmed. All the Justices concur.
li

♦

APPENDIX E - Order of he Superior court Tattnall County,
denying
habeas
relief,
April
13,
2017......
1-5

*'\r

J2
TATTNALL CQKHTY GA
IN THE SUPERIOR COURT OF TATTNALL COUh^Y

(
AH 9* 03

STATE OF GEORGIA
oer<& corns'

MARK RUDOLPH ARSENIO REED,
GDC 100066435

-G

Petitioner,

5

fcr

ROBERT TOOLE, WARDEN,

-3
3

CASE NO. 2014-HC-99-CR

)
.)
)

vs.

C

)
)
)
)

)
)
)

Respondent

•
HABEAS CORPUS

FINAL ORDER

0/

V
3

5

Petitioner, Mark Rudolph Arsenio Reed, (the “Petitioner") filed the instant petition

r

on November 26, 2014, challenging his October 2011 DeKalb County jury trial
convictions for malice murder, theft by taking, theft by receiving, concealing the death of

Q-

£

f

1
s

J

another, and possession of a firearm during the commission of a felony, for which
Petitioner received an aggregate sentence of life plus twenty-five years.

Having

reviewed the transcript and evidence presented at the February 17,2016 hearing in this
case, and based on the entire record herein, the Court makes the following findings of
fact and conclusions of law.
FINDINGS OF FACT AND CONCLUSIONS OF LAW
Petitioner originally filed ten grounds for relief in his original petition. He then
filed an amendment on February 4, 2016, withdrawing grounds 1, 2, 3. 5, 7. 8, and 10,
and adding other grounds for a total of fourteen grounds for relief.
convictions and sentences were affirmed on direct appeal.
877,757 S.E.2d 84 (2014),

Page 209 of 214

I
i

RESPONDED
EXHIBIT

M-

Petitioner’s

Reed v: State. 294 Ga.

i*

\

'

v

I.

Impermissible Amendment of the Indictment bv the Prosecutor.

Petitioner argues that the original indictment alleged that all offenses occurred on
May 21, 2007. During trial the State said that the date on the indictment was incorrect.
Petitioner argues that the State never established the correct date on the record or
otherwise making the indictment void. The Court finds that this issue was decided
adversely to Petitioner on direct appeal and may not be re-litigated in habeas corpus.
Reed v. State. 294 Ga. 877, 757 S.E.2d 84 (2014), Gaither v. Gibbv. 267 Ga. 96, 97,
475 S.E.2d 603 (1996). The appellate court ruled that an erroneous date of murder on
the indictment did not render the indictment invalid. The date of the offense was not
alleged to be an essential element of any of the offenses charged. Given the facts in
this case, Petitioner buried the body and it was not discovered until later, the State was
not able to prove the exact date on which the victim died. The prosecution was allowed
to state that the date was incorrect. The Court finds this claim to be without merit
II.

Impermissible Amendment to the Indictment Denying Petitioner of a Fair
Trial.

Petitioner argues that the impermissible amendment to the indictment denied
Petitioner of his defense, right to a fair trial, and right to due process. Again, the Court
does not find an impermissible amendment to the indictment The Court finds this claim
to be without merit
111.

Constructive Amendment to the Indictment

Petitioner argues that the trial court admitted to the jury that the date in the
indictment was incorrect The Court finds that this issue was decided adversely to
Petitioner on direct appeal and may not be re-litigated in habeas corpus. Reed v. State.

2

Page 210 of 214

.294 Ga. 877, 757 S.E.2d 84 (2014), Gaither v. Gibbv. 267 Ga. 96, 97, 475 S.E.2d 603
(1996). The Court finds this claim to be without merit.
IV.

Court Restricted Petitioner Access to the Court to File Motion in Arrest
of Judgment

Petitioner argues that his trial counsel was dismissed after trial but did file a skeleton
motion for new trial. Petitioner states that he was prevented from filing a motion in
arrest of judgment himself because he was still represented. The Court finds that this
issue was decided adversely to Petitioner on direct appeal and may not be re-litigated in
habeas corpus. Reed v. State. 294 Ga. 877, 757 S.E.2d 84 (2014), Gaither v. Gibbv.
267 Ga. 96,97,475 S.E.2d 603 (1996). The Court finds this claim to be without merit.
V.

Impermissible Amendment of the Indictment.

The Court has already addressed this ground above. The Court does not find an
impermissible amendment to the indictment. The Court finds this claim to be without

merit.
VI.

"State Set the Time Bar Against the Prosecution of the Offenses
Petitioner Convicted for.”

Petitioner argues that that the indictment had an incorrect date and the State never
provided a correct date. Therefore, Petitioner argues that the State never proved a date
for the statute of limitations. The appellate court ruled that the erroneous date did not
render the indictment invalid. There is no applicable statute of limitation for the offense
of murder. State v. Jones. 274 Ga. 287, 553 S.E.2d 612 (2001). Additionally, when
crimes are concealed or unknown, the applicable statute of limitations begins when the
crime becomes known to the State. State v. Crowder. 338 Ga.App. 642, 791 S.E.2d

3
Page 211 of 214

A

423 (2016). The statute of limitations did not begin for Petitioner's crimes other than
murder until the crimes were discovered. The Court finds this claim to be without merit.
VII.

Indictment Impermissibly Amended to Correct Defects!

Petitioner argues that the State struck defects from the indictment. The Court finds
that this issue was decided adversely to Petitioner on direct appeal and may not be relitigated in habeas corpus. Reed v. State. 294 Ga. 877, 757 S.E2d 84 (2014), Gaither
vjGibby, 267 Ga. 96, 97, 475 S.E.2d 603 (1996). The Court finds this claim to be
without merit.
VIII.

Void Indictment

Petitioner argues that the indictment is void. The Court finds that this issue was
decided adversely to Petitioner on direct appeal and may not be re-litigated in habeas
corpus. Reed v. State, 294 Ga. 877, 757 S.E.2d 84 (2014), Gaither v. Gibbv. 267 Ga.
96,97,475 S.E.2d 603 (1996). The Court finds this claim to be without merit.
IX.

Defective Verdict as a Matter of Law.

Petitioner argues that the verdict was not consistent with the law or evidence. The
appellate court held that the evidence was sufficient to enable a rational trier of fact to
conclude beyond a reasonable doubt that Petitioner was guilty of the crimes for which
he was convicted and sentenced. Reed v. State. 294 Ga. 877, 757 S.E.2d 84 (2014).
The Court finds that the verdict was consistent with the law and evidence in this rase.
The Court finds this claim to be without merit.
X.

Judgment and Conviction Void.

Petitioner argues that the indictment does not allege the correct date. The Court
finds that this issue was decided adversely to Petitioner on direct appeal and may not

4

Page 212 of 214

k

¥

be re-litigated in habeas corpus. Reed v. State. 294 Ga. 877, 757 S.E.2d 84 (2014),
Gaither v. Gibby. 267 Ga. 96. 97, 475 S.E.2d 603 (1996). The Court finds this claim to
».*

be without merit.
XI.

The Year-and-a-Dav Rule Applies.

The Petitioner argues that the year-and-a-day rule applies and that the trial court
violated the common law principle and its application in Petitioner’s case.

Under

common law, the year-and-a-day rule states that a defendant cannot be indicted for
homicide if death did not occur within one year and one day of the injury caused by
defendant That common law rule was abolished in Georgia in 1968 and is inapplicable
to Petitioner’s case.

Furthermore, the evidence shows that the victim was killed

immediately; it was discovery of his murder and body that occurred later, making that
rule irrelevant even if it was indeed good law. The Court finds this claim to be without

merit
XII.

Void and Unconstitutional Sentence.

The Petitioner argues that the sentence is not valid because there was not a correct
date on the indictment. The Court has repeatedly addressed the issue of the erroneous
date on the indictment in earlier grounds. The Court finds this claim to be without merit.
XIII.

The Trial Court Abused Discretion in Denying Motion for New Trial.

The Petitioner argues that the court abused its discretion in denying the Motion for
New Trial because Petitioner’s arguments in that Motion were regarding the incorrect
date. The Court has repeatedly addressed the issue of the erroneous date on the
indictment in earlier grounds. The Court finds this claim to be without merit

5
Page 213 of 214

0

XIV.

The Allegations in the Indictment and Evidence do not Correspond.

Petitioner argues that the prosecution admitted that the date on the indictment was
incorrect violating Petitioner’s right to due process,

The Court has repeatedly

addressed the issue of the erroneous date on the indictment in earlier grounds. The
Court finds this claim to be without merit.
CONCLUSION
Having fully considered all of Petitioner's claims and finding that he has failed to
prove that he is entitled to relief. IT IS HEREBY ORDERED that Petitioner’s Application
for Writ of Habeas Corpus be DENIED.
If Petitioner desires to appeal this Order, he must file a written application for a
certificate of probable cause to appeal within thirty (30) days from the date of the filing
of this Order and also file a Notice of Appeal with the Cierk of the Superior Court of
Tattnall County within the same thirty (30) day period. The Clerk of the Superior Court
of Tattnall County is hereby directed to mail a copy of this Order to Petitioner,
Respondent, and the office of the Attorney General of Georgia.

This

^ day of

■ 2017.

<ZlA

■ Charles P. Rose, Jr.
/
Judge, Superior Courts of Georgia
Atlantic Judicial Circuit

6
Page 214 of 214

APPENDIX F — 1 Order of the Dekalb County Superior Court,
denying Motion for New Trial, February 26, 2013
No subject
matter jurisdiction.
1-6

o

IN THE SUPERIOR COURT

r*o

t___
O--.

t_0

-n
m

OF DEKALB COUNTY

co

r*

CJ c.C

po

ocr>

Is 2
^4 O

STATE OF GEORGIA,
CASE NO.

v.

-OX)
PO

04

>'?>
cz

.p-

09CR4282-4

—s

MARK REED,
Defendant.
ORDER DENYING MOTION FOR NEW TRIAL

A DeKalb County jury found Mark Reed guilty on all counts
of the above styled indictment. 1
20] 1.

He was sentenced on October 11,

2

A timely motion for new trial was filed on Reed's behalf.

An amended motion and a second amended motion for
new trial were
also filed on Reed's behalf,

At a January 8, 2013 evidentiary

hearing on the motions for new trial, after being given the full
panoply of warnings prescribed by Faretta v.
California,3 Reed
elected to proceed pro se during post conviction proceedings.
The January 8, 2013 evidentiary hearing was continued at Reed's
request in order for him to research and submit additional
claims of error.

Count 1, malice murder (victim Marlon Green); Count 2, felony murder

(r°°s? rh shot9un)

;

2 Subsequently, Reed' s conviction and sentence
Counts 4 and 5 were vacated
pursuant to Ingram v. State. 268 Ga. App. 149, on
151 (2004) .
3 Faretta v. California.
_ 422 U.S. 806 (1975).
■ 1

~n
S

rn
-SE^S

. *'

«*

■

Thereafter,

following the submission of a third amended

motion for new trial and two supplements to the third amended

motion for new trial, an evidentiary hearing was held on
February 12, 2013. After consideration of the record and
evidence, the claims of error, and the arguments of the parties,
this Court finds as follows.
1.

The majority of the claims raised by Reed in his

amended motions for new trial concern the date on which the
murder of the victim occurred. These claims are based primarily
on the fact that the indictment alleged that the murder occurred
"on or about the 21st day of May, 2007," although the .State did
x riotiknow the date on which the murder actually occurred, and the
prosecutor ..admitted' as much at trial during opening argument.4
Throughout the third amended motion for new trial and the two
supplements thereto, Reed's date-related claims have been framed
in a variety of ways that have been carefully reviewed by this
Court.

Each of these claims is without merit. Specifically,

4 Reed murdered victim Marlon Green in 2007 when he shot the victim in the
chest with a sawed-off shotgun, Law enforcement first learned of the murder
in 2009, when accomplice LaShawn Payne came forward and gave a police
statement implicating Reed and confessing her involvement in the concealment
of the body. The victim’s body was then exhumed from the makeshift grave in
an abandoned wooded area where Reed and Payne had buried it in 2007. LaShawn
Payne could not remember the exact date on which Reed shot the victim in the
chest but thought that it occurred in May'Of‘2007. The indictment alleged
that Reed murdered the victim "on or about the 21st day of May, 2007". The
prosecutor during opening argument informed the jury that the date in the
indictment was »indorrect-" and that the evidence would show the murder
occurred as early as March of 2007. (T. 63-64) .
2

<**

(a) There is no statute of limitations as to murder, and
the State proved that the offenses alleged in the remaining
counts of the indictment occurred at an "appropriate date
previous to the finding in the indictment and within the statute
of limitation for the prosecution of the offense charged."5
(b) Any claims related to a "fatal variance" between
alegata and probata are waived for failure to raise the claim at
trial.6

Moreover, there was no "fatal variance" simply because

the indictment alleged a non-material date on which the offenses
occurred.7
(c) There was no "constructive amendment" of the indictment
when the prosecutor informed the jury during opening argument
that the immaterial date alleged in the indictment may be

fhSpr^tl8
(d) Because Reed's date-related claims are legally
meritless, they would not have provided a basis for either
quashing the indictment, granting a directed verdict, or
dismissing the indictment as "void."
For all of these reasons, Reed's allegations related to the
date alleged in the indictment provide no basis for granting a
motion for new trial.
5 Eberhardt v. State, 257 Ga. 420, 421 (1987); Williams v. State, 304 Ga. App.
592, 593-594 (2010) .
Shindorf- v.- State/ 303 Ga. App. 553, 555-556 (2010).
7 Id.; Lovelace v. State, 241 Ga. App. 774, 775 (2000).
8 See Morris v. State, 310 Ga. App. 126, 128-129 (2011) ("a constructive
amendment occurs when the essential elements of the offense contained in the
indictment are altered"). ;

I

3

♦ .

2.

The evidence in this case did not support a jury charge

on the offense of voluntary manslaughter because there was no
evidence of serious provocation within the meaning of OCGA 16-52 (a) .9

Consequently, Reed's claims related to a jury charge on

voluntary manslaughter provide no basis for granting a motion
for new trial.
3. Reed's trial defense made relevant the episodes of
violence by Reed against LaShawn Payne, which established the
reasonableness of her fear for her life and the lives of her
family members if" she came forward to tell the police about
Reed's murder of the victim.10

Accordingly, Reed's claims that

• this evidence was improperly "bolstering" and "irrelevant to the
indicted offenses" provide no basis for granting a motion for
new trial.
4.

Reed claims error in the introduction of "similar

transaction evidence."

However, no similar transaction evidence

was introduced in this case,

The evidence about which Reed

complains was admissible either as part of the res gestae of the
indicted offenses or as part of the prior difficulties evidence
between LaShawn Payne and Reed, as discussed in Division 3
above.

No basis for granting a motion for new trial has been

shown.

9'fjerritt..v..,.State, 2013 Ga. LEXIS 69 (decided January 22, 2013).
±0-Cannon^Vj.^State, 2 88 Ga . 225, 228 (2010); Carroll v. State, 255 Ga. App.

514, 515 (1980) .
4

5.

This Court finds that Reed received effective

assistance of counsel under the standard established in
Strickland v. Washington.11

None of Reed's legal claims of error

have merit so as to render his trial attorney "ineffective" for
failing to raise them,

Moreover, Reed did not call his trial

attorney to testify at the motion for new trial hearing, and he
"failed to present any evidence to overcome the strong
presumption that counsel’s conduct f [ell] within the wide range
of reasonable professional assistance."

No basis for granting

a new trial has been shown on Reed's claims of ineffective
assistance of trial counsel.
6.

This Court finds that the testimony of eyewitness

Cameron Thomas as to what occurred after Reed shot the victim
inclusive of his testimony that he smelled "Pine Sol"; that Reed
and LaShawn were "cleaning"; that Reed and LaShawn used a
"dollie"; that the victim's body and car were gone when he woke
—; that LaShawn and Reed disappeared for almost two days and
up;
then returned together in the same car

was sufficient to

corroborate the accomplice testimony of LaShawn Payne as to the
offense of concealing the death of another as charged in the
indictment.

(T. 364-371) .13 Additionally, the evidence as a whole

was sufficient for a rational trier of fact to have found Reed
11 Strickland v. Washington, 466 U.S. 668 (1984).

u Judkins v. State, 282~G^. 580, 583-584 (2007); Boykin v. State, 264 Ga.
App. 836, 841 (2003) .
13 Brown;v.* State, 291 Ga. 750, 752 (2012) .
5

4*

guilty beyond a reasonable doubt of the offenses for which he
was convicted.14 No basis for granting a new trial has been
shown.
7.

The mitochondrial DNA expert's testimony provided a

sufficient basis for a reasonable juror to have found beyond a
reasonable doubt that the victim was Marlon Green.

(T. 403-

404) .1S
8.

This Court finds that Reed failed to establish that any

of the errors he alleges in his motions for new trial affected
the verdict in any way.1P
For all of the above and foregoing reasons, the motions for
new trial filed in the above stybed case are hereby DENIED.
SO ORDERED, this

, 2013.

day of

'OUU

(

GAIL C. FLAKE, JUDGE
SUPERIOR COURT OF DEKALB COUNTY
STONE MOUNTAIN JUDICIAL CIRCUIT

CC :

Leonora Grant, Assistant District Attorney
Mark Reed, Defendant

14 Jackson v. Virginia, 443 U. S. 307 (1979).
15 Jackson v. Virginia, supra.
16 See, e.g., Madison v. State 281 Ga. 640, 642 (2007)
error must be shown to authorize a reversal").
6

("harm as well as

- *

APPENDIX F — 2 Order of the Dekalb County Superior Court, denying
Motion for production of court records etc., October ,5 2012 pg.1,2

• *,

A

IN THE SUPERIOR COURT OF DeKALB COUNTY
STATE OF GEORGIA

STATE OF GEORGIA,

)
)

MARK REED,
Defendant.

£_-

. -•

m c:t -s

a

09-CR-4282 -4

)
)
)
)

Defendant’s pro se Motion to Compel Production of Documents, Records and
Transcripts (filed July 30, 2012) came regularly before the Court for consideration. Upon
review of the pleading and other matters of record, the Court finds as follows:
Defendant Reed was convicted by a jury on October 4, 2011, on all counts in the
indictment. He was sentenced by this Court on October 11, 2011. Mr. Reed has a
pending motion for new trial and is represented by counsel, Teri L. Smith. As a matter of
law, all motions filed by the Defendant in a criminal case while he is represented by
counsel have no legal effect whatsoever. Voils v. State. 266 Ga. App. 738, 742, 598
S.E.2J 38 (2004); rless v. State. 255 Ga. App. 95, 96, 564 S.E.2d 508 (2002). As the
Defendant is represented by counsel, the pro se motion is hereby DISMISSED.
day of October, 2012.

GAIL C. FLAKE, Judge
DeKalb County Superior Court
Stone Mountain Judicial Circuit

?:

cc:
p

Lee Grant, Deputy Chief Assistant District Attorney
Teri L. Smith, Esq.

in

°£*Al £ CCL.Si VGA

ORDER DISMISSING MOTION TO COMPEL PRODUCTION OF
DOCUMENTS. RECORDS AND TRANSCRIPTS

SO ORDERED, this

0

r•

) Case No.:

vs.

FI

uq
JR 7

rfcj

*

APPENDIX G - Prosecutor William Clark, Orally Amending
Trial
2011
26,
Indictment,
September
.......Cover, 63-lines 17-25, 64 line 1
Transcript..

»>)

*
;

IN THE SUPERIOR COURT FOR THE COUNTY OF DEKALB
STATE OF GEORGIA

1
2
3

) Indictment No.
) 09CR4282-4
)

vs.

4
5

)
)

STATE OF GEORGIA

MARK REED

6
7
8

JURY TRIAL
VOLUME I (Pages 1 - 80)

9
10

Proceedings before the Honorable Gail C. Flake,

11
12

Superior Court Judge, and a jury, at the Dekalb County

13

Courthouse, Decatur, Dekalb County, Georgia on September 26,

14

2011.

D

15
16
17
18

Appearances:

19
20

FOR THE STATE:

WILLIAM CLARK, Esq.
Assistant District Attorney

FOR THE DEFENDANT:

KARLYN SKALL, Esq.
Attorney at Law

21
22
23
24
25

Amanda Upton
Certified Court Reporter
P.0. Box 466343
Lawrenceville, Georgia 30042
678-683-5488

^ 00216 PIPI

p

1
2

from a necklace.
The ME's office asked Ms. Beard if she could come and
And she was able to

3

attempt to identify these items.

4

identify those items as having belonged to her son and

5

described the clothes that he was wearing at the time of

6

the disappearance.

7

And those things matched up.

We found Mr. Green's body because of the information

8

that Lashawn Payne gave to the police.

9

will be here.

10

11

And she will testify to you that she thought

it was around May 21st of 2007.
The

And let me point that out at this point in time.

12

Judge read the indictment to you.

13

21st of 2007.

14

the police.

15

Ms. Lashawn Payne

And it has in there May

Again, that came from what Ms

Payne told

But the evidence is gonna show you that Mr. Thomas

16

(SIC) was dead before that, around the beginning of March.

17

So the date in the indictment is not correct.

18

But the date in the indictment does not have to be
Only that it's not an exact date but within the

19

proved.

20

statute of limitations.

21

detailed instructions about that.

22

And the Judge will give you some

I don't want you as you're listening to the evidence

23

to be waiting for what happened on May 21st because I

24

believe all the evidence is gonna show the events took

25

place between the beginning of March and March 7th as to

_

0C:'78
63

1
2

Mr. Thomas (SIC) being killed.
Ms . Payne will tell you that when Mr. Reed found out

3

that, in essence, he was being ripped off he called the

4

victim to the location at 4473 Flakes Mill Road.

5

She will tell you that Mr. Reed went outside and

6

confronted Mr. Thomas and they had an argument outside.

7

She will also tell you that she saw Mr. Reed place a

8

shotgun close to the entrance to the house.

9

She will tell you that Mr. Marlon Green came into the

10

house and sat down in what's like a breakfast nook, just

11

sat in one of the tables at — in one of the chairs at the

12

table, Mr. Reed retrieved shotgun and shot Mr. Marlon Green

13

one time in the chest.

14

Ms. Payne will also tell you that at that point in

15

time Mr. Reed made her help in disposing of the body,

16

put Mr. Green's body into a tarp.

17

They

She will tell you that they put the body into the
And she will tell you

18

his vehicle, the rental vehicle.

19

that she picked out the area in which to bury the body.

20

She will tell you that she was familiar with this

21

location because it was another location that Mr. Green had

22

showed them as being available for them to rent.

23

She picked this area because it was secluded and it

24

was peaceful, it ran next to the river — the river ran

25

right next to it and that's where she wanted Mr. Green to

00Z79
64

'V

♦ +

APPENDIX -H -1 Notice of
2012..1-5

Appointment, Gerard Kleinrock, January 18,

r
y

vsSSHSfis

&

Office of the Public Defender for the
Stone Mountain judicial Circuit
408 CALLAWAY BUILDING
120 WEST TRINITY PLACE
DECATUR, GA 30030

(404) 371-2222 • FAX (404) 371-2298
Claudia S. Saari
INTERIM CIRCUIT DEFENDER

January 18, 2012
Mark Reed
X0432524
DeKalb County Jail
8 NE 102
Dear Mr. Reed:
I have been appointed to represent you for your appeal. This letter is to explain the general
appellate process, in case you are not familiar with it.
Karlyn Skall filed your motion for new trial on October 11,2011. I will file all other appellate
filings for you. We now have to wait to receive a transcript of your trial from the court reporter,
which can sometimes take months. Unfortunately Georgia law only provides one free transcript,
which of course is provided to your lawyer and not to you. See Heard v. Allen, 234 Ga. 409
(216 S.E.2d 306) (1975). Transcripts are very expensive, but if you want a copy you can
purchase your own from the court reporter -1 can give you the name of the court reporter if you
are considering this. Note that immediately after my representation of you for your direct appeal
has ended, I will send you my copy of the transcript.
The first possible court action in your appeal is a hearing on the motion for new trial. This
hearing is scheduled by Judge Flake, and I cannot control the hearing date. The speed at which
these hearings are reached varies considerably. Some cases have a hearing on the motion for
new trial within just a few months, and some cases do not have a hearing scheduled for over a
year.
Occasionally, prior to a hearing on a motion for new trial, we waive the hearing, and request the
trial judge to rule on the record. This is because most motions for new trial simply repeat issues
that the trial judge has already ruled on at trial. We cannot, in most cases, expect a different
decision from the same judge, unless there are significant new factors for the judge to consider.
In fact, in some cases arguing the motion in court can actually hurt our case rather than help it,
because there is a danger that the trial judge will expressly find additional facts, in order to give
further support to the judge’s rulings at trial. If this happens, it can make the appeal much harder
for us, because appellate courts generally have to give great weight to any factual findings by a
trial judge.
The decision of whether to waive the hearing on the motion for new trial can only be made after
carefully weighing the specific factors in your case, and is often made only shortly before the
hearing itself. If we do request the trial judge to rule on the record, Judge Flake will only read
the motion for new trial that I have filed and then make a decision without oral argument.

■*

- •

Most of the time the trial judge will not admit to making mistakes in the trial, and the appeal will
have to proceed beyond the motion for new trial. In this case, the judge will file an order
denying the motion for new trial. I will then file a notice of appeal within 30 days. The clerk,
usually within a month or two, will then transmit their entire file to the appellate court. Once the
appellate court receives the file, I will have 20 days to file your brief, and the state will have 20
more days to reply. I will of course send you copies of these briefs. The appellate court will
usually issue its decision from six to nine months later, and I will forward it to you.
Our office represents you for your “direct appeal” only, meaning your initial appeal to the
appellate court. We will not represent you for any further appeals you wish to pursue, such as
motions for reconsideration, petitions for certiorari, or habeas corpus proceedings. As I
mentioned above, however, I will provide you with the transcript so you will be able to pursue
any of these avenues of appeal by yourself.
It is important that you understand what kinds of appellate arguments we can and cannot raise.
The issues that we can raise on appeal are generally limited to mistakes of law made at your trial,
such as rulings by Judge Flake on the admissibility of evidence, responses to objections, etc.
Arguments about mistakes of fact are generally impossible to win. This is because
[o]n appeal from a criminal conviction, [the appellate court]
view[s] the evidence in the light most favorable to the verdict and
an appellant no longer enjoys the presumption of innocence. [The
appellate court]... does not weigh the evidence or determine
witness credibility. Any conflicts or inconsistencies in the
evidence are for the jury to resolve.
Rankin v. State, 278 Ga. 704, 705, 606 S.E.2d 269 (2004) (citations omitted).
And perhaps the most important point: usually, you only get one chance to raise an issue with an
appellate court. If you do not raise an issue at the first opportunity, it may be waived forever.
For this reason, you must tell me now about any specific mistakes that you think happened at
your trial. As I pointed out above, this generally cannot include mistakes of fact made by the
jury. But it does include mistakes made by Judge Flake, as well as any mistakes made by, or
ineffectiveness of, your trial attorney. Particularly with any ineffective assistance of counsel
issues, you must notify me as quickly as possible to avoid delaying your appeal or, worse,
waiving the issue. I will of course review your entire trial to try to discover any appealable
issues, whether you mention them or not, but I certainly want to hear about any issues that seem
important to you. Please understand, however, that it will ultimately be my responsibility to
decide what issues are appropriate to raise on appeal.
Finally, O.C.G.A. § 15-21 A-6(b) requires our office to collect a $50 application/ representation
fee. This fee should be paid at the earliest opportunity unless payment is impossible or it would
create a hardship for you and your family. We are only authorized to receive payment in the
form of a money order. The money order should be payable to “DeKalb County.” The name of
the defendant and a contact telephone number should be written on the money order. Make sure
to keep the receipt.

r

' i

I hope this letter makes the appellate process more clear. If you have any further questions, or if
you want to point out any potential errors in your trial, please contact me at the above address,
will do my best to keep you informed at every stage of your case. In the meantime, I wish you
well and encourage you to keep your spirits up.
Sincerely,

Gerard Kleinrock
Assistant Public Defender

t

c
APPENDIX -H - 2 Notice of Appointment, Teri Smith, August 23, 2012.... 1-3

■

^

. T«S!i£o^.

ALCOVY JUDICIAL CIRCUIT PUBLIC DEFENDER OFFICE

Walton County Office
y>I- Walton Co. Annex 4,203 Milledge Avenue
M
Monroe, Georgia 30655
Telephone 770-266-1540
^ « us CO^
Facsimile 770-266-1545

Newton County Office
1160 Pace Street P.O. Box 430
Covington, Georgia 30014
Telephone 770-788-3750
Facsimile 770-788-3757

Anthony Carter

Public Defender

August 23,2012

Mr. Mark Rudolph Arsenio Reed, GDC # 0001210370
Telfair State Prison
P.O. Box 549
Helena, GA 31037
Re: 09CR4282-4
Dear Mr. Reed,
This letter is to inform you that Attorney Teri L. Smith will be handling your appeal case. I have enclosed for you
her business card and a copy of the Entry of Appearance. You should soon be hearing from her most likely by mail.
If by chance you are transported from Telfair State Prison, please inform us of your new location as soon as
possible. Also in the meantime if you have any questions, please feel free to write Mrs. Smith using the Walton
County Office address above.
Smeerely7

Terri Hall ^
Office Manager
enc.

In all criminal prosecutions, the accused shall enjoy the right ...to have the assistance oj'counsel, for his defense^
U.S. Constitution, Amendment VI - December 15,17VI

4

IN THE SUPERIOR COURT OF CLARKE COUNTY
STATE OF GEORGIA
STATE OF GEORGIA

CASE NO.: 09CR4282-4

VS.
MARK RUDOLPH ARSENIO REED,
Defendant

ENTRY OF APPEARANCE

Now comes the undersigned attorney and pursuant to court appointment by the Georgia Public Defender
Standards Council enter this appearance as appointed Appellate Counsel for the defendant in the above-styled
matter(s).
This the 23rd day of August, 2012.

Respectfully submitted,
Anthony S. Carter, Public Defender
Alcovy Judicial Circuit

203 Milledge Avenue, Annex 4
Monroe, Georgia 30655
Phone: (770) 266-1540

By:
Teri L. Smith
Attorney for Defendant
Georgia Bar # 663665

CERTIFICATE OF SERVICE
This is to certify that I have this day served the within and foregoing ENTRY OF APPEARANCE on the
following by placing it in the U.S. Mail, properly addressed with sufficient postage thereon to:
Dekalb County District Attorney’s Office
556 North McDonough St., Suite 700
Decatur, GA 30030
This the 24th day of July, 2012.
Teri L. Smith

r

<■

«

APPENDIX -I- Stipulation of State, Trial Court and Leonora
Grant, February 12, 2013
Cover, 9-10

ft

I.
I

w

, r

IN THE SUPERIOR COURT FOR THE COUNTY OF DEKALB
STATE OF GEORGIA

STATE OF GEORGIA

)
)
)
)

VS .

FILE:

09-CR-4282

MARK REED

TRANSCRIPT OF MOTION FOR NEW TRIAL IN THE
ABOVE-CAPTIONED MATTER,

BEFORE THE HONORABLE GAIL C.

FLAKE, SUPERIOR COURT.JUDGE,
FEBRUARY 12,

DIVISION 4, HELD ON

2013, DECATUR, GEORGIA.

APPEARANCES OF COUNSEL:

1'

FOR THE STATE:

LEONORA GRANT, ESQ.

FOR THE DEFENDANT:

PRO SE

DIANNE KARAMPELAS
CERTIFIED COURT REPORTER
DEKALB COUNTY COURTHOUSE
DECATUR, GEORGIA 30030

t

4

THE COURT:

1
2
3

SHE CAN STAND UP AND MAKE OBJECTIONS,

YES .
THE DEFENDANT:

OH, OKAY.

I MEAN,

I WASN'T FIXIN' TO

4

READ FROM THE TRANSCRIPT,

BUT AT ONE POINT DURING THE

5

OPENING ARGUMENT

6

POINT DURING DIRECT EXAMINATION, LASHAWN PAYNE WAS ASKED

7

ABOUT THE DATE, AND SHE GAVE AN ANSWER THAT SHE DIDN'T

8

KNOW WHAT THE DATE WAS DURING THE CROSS-EXAMINATION.

9

WAS ASKED FOUR DIFFERENT TIMES WITHIN THE TRANSCRIPT

I MEAN NOT OPENING ARGUMENT, BUT ONE

SHE

10

CONCERNING THE DATE, AND SHE DIDN'T KNOW WHAT THE DATES

11

WERE OF THE OFFENSE, THE CRIMINAL OFFENSE.

12

THAT TESTIFIED OUT OF THE OTHER EIGHT PEOPLE THAT THE

13

STATE PUT ON AS WITNESSES TESTIFIED TO IT.

14

MS. GRANT:

JUDGE, WE WILL STIPULATE THAT THE EXACT

15

DATE WAS NEVER ESTABLISHED,

16

THAT ANYMORE.

SO WE DON'T NEED TO GO THROUGH

THEY'VE STIPULATED THAT THE EXACT DATE

17

THE COURT:

18

WAS NOT ESTABLISHED.

19

THAT CONSTITUTES REVERSIBLE ERROR.

»
20

NO ONE ELSE

THE DEFENDANT:

I THINK THE LEGAL ISSUE IS WHETHER

LET ME GET SOMETHING UNDERSTOOD.

21

STIPULATION IS BECAUSE IT WAS ACTUALLY STIPULATED

22

DURING

23

STIPULATION BEING TAKEN RIGHT NOW?

24
25

DURING THE OPENING ARGUMENT,

THE COURT:

THEY'RE STIPULATING,

' THE

OR IS THIS

FOR THE PURPOSE OF

YOUR MOTION FOR NEW TRIAL, THAT THE DATE OF THE MURDER WAS
9

V

(.
%

>1

$

1

NEVER SPECIFICALLY ESTABLISHED AT TRIAL.

2
3

THE DEFENDANT:

THE EVIDENCE AND WAS NEVER ESTABLISHED IN THE INDICTMENT.

4*
5
4

THE COURT:

THEY'VE INDICATED THAT THE DATE IN THE

INDICTMENT WAS NOT THE CORRECT DATE.

6

THE DEFENDANT:

7

TWO ISSUES.

8

SO

9•
i 10

WAS NEVER ESTABLISHED AT TRIAL DURING

I'M TRYING TO UNDERSTAND.

THERE'S

I WANT TO KNOW WHAT THE STIPULATION IS TO,

MS. GRANT:

THE JUDGE CORRECTLY STATED IT.

THE STATE

STIPULATES TO THE FACT THAT THE TRANSCRIPT AND THE

11

TESTIMONY NEVER ESTABLISHED THE EXACT DATE ON WHICH YOU

12

KILLED MARLON GREENE.

13

THE DEFENDANT:

14

THE COURT:

15

THE DEFENDANT:

16

THE COURT:

17

THE DEFENDANT:

THAT'S A STIPULATION?

YOU HEARD HER.
OKAY.

LET'S GO FORWARD.
OKAY.

MAKE YOUR ARGUMENT.

SO BY THE EVIDENCE NEVER

18

DEMONSTRATING THE DATE IN THIS PARTICULAR ENUMERATION OF

19

ERROR AND THE FACT THAT THE DATE WAS ACTUALLY STRICKEN IN

20

THE INDICTMENT, THERE'S ABSOLUTELY NO WAY TO ESTABLISH THE

21

DATE OF THE OCCURRENCE OF THE OFFENSE, AND THAT'S THE

22

REASON FOR MENTIONING THE DATE AND TO SHOW THE DIFFERENCE

23

IN THE TWO.

24

LEFT

25

ESTABLISHING IT BY ANY PARTICULAR POINT OF EVIDENCE.DURING

THE CHANGE OF THE DATE FROM THE INDICTMENT

LEFT YOU NO DATE TO GO UPON, AND NEVER

10

